<html>
<title> - H.R. 1497, A BILL TO REAUTHORIZE TITLE I OF THE SIKES ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
       H.R. 1497, A BILL TO REAUTHORIZE TITLE I OF THE SIKES ACT

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, April 10, 2003

                               __________

                           Serial No. 108-15

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
86-410 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800 
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel

                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Rob Bishop, Utah                     Madeleine Z. Bordallo, Guam
Richard W. Pombo, California, ex     Nick J. Rahall II, West Virginia, 
    officio                              ex officio

                                 ------                                




                            C O N T E N T S

                               ----------                              
                                                                   Page

Hearing held on April 10, 2003...................................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate to Congress from Guam     5
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     3
        Prepared statement of....................................     4
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     5

Statement of Witnesses:
    Baughman, John G., Executive Vice President, International 
      Association of Fish and Wildlife Agencies..................    18
        Prepared statement of....................................    20
    Deal, Lt. Col. A. Lewis, USMC (Retired), Director of Outdoor 
      Sports Development, Paralyzed Veterans of America..........    42
        Prepared statement of....................................    43
    DuBois, Raymond F., Jr., Deputy Under Secretary of Defense 
      for Installations and Environment, U.S. Department of 
      Defense....................................................     6
        Prepared statement of....................................     8
    Martin, Chester O., President, National Military Fish and 
      Wildlife Association.......................................    36
        Prepared statement of....................................    38
    Meyer, Dan, General Counsel, Public Employees for 
      Environmental Responsibility...............................    45
        Prepared statement of....................................    46
    Rurka, Gene, Chairman, Humanitarian Services Committee, 
      Safari Club International..................................    40
        Prepared statement of....................................    42
    Tuggle, Dr. Benjamin N., Chief, Division of Federal Program 
      Activities, Fish and Wildlife Service, U.S. Department of 
      the Interior...............................................    13
        Prepared statement of....................................    14

Additional materials supplied:
    Camacho, Hon. Felix P., Governor, Territory of Guam, 
      Statement submitted for the record.........................    59


LEGISLATIVE HEARING ON H.R. 1497, A BILL TO REAUTHORIZE TITLE I OF THE 
                               SIKES ACT

                              ----------                              


                        Thursday, April 10, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest, Chairman of the Subcommittee, presiding.
    Present: Representatives Gilchrest, Saxton, Pallone and 
Bordallo.
    Also Present: Representative Cunningham.
    Mr. Gilchrest. Good morning. The Subcommittee will come to 
order.
    Today we will hear testimony on H.R. 1497, a measure 
introduced by Chairman Richard Pombo to extend the 
authorization for Title I of the Sikes Act.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. I ask unanimous consent that our friend and 
Colleague, Mr. Duke Cunningham, sit on the dais this morning 
for the hearing.
    Without objection, it is OK, Duke. You are welcome.
    The law, which was first enacted in 1960, is responsible 
for the conservation of fish, wildlife, and their habitat at 
some 25 million acres of military land. The Department of 
Defense has some 400 military installations throughout the 
United States that contain wildlife resources. In fact, nearly 
300 Federally listed, threatened and endangered species reside 
on those lands under the jurisdiction of DOD. In many ways, 
those DOD lands are a unique ecosystem.
    In 1997 this law was reauthorized and a number of 
significant changes were made to the underlying statute. The 
most significant modification was a requirement that the 
Department of Defense prepare a comprehensive integrated 
natural resource management plan for each of its installations 
that have plant and animal species. These plans would include 
an inventory of fish and wildlife resources, efforts to protect 
wetlands, how natural resource laws will be enforced, whether 
wildlife-oriented recreation will be permitted, and how our 
vital fish and wildlife populations will be managed in the 
future.
    In addition, the law now requires that the Department 
submit these plans for public review, and that they may be 
written in full consultation with the Fish and Wildlife Service 
and the affected States.
    Finally, Public Law 105-85 stipulated that the Department 
must maintain a significant number of professionally trained 
natural resource management personnel to prepare and implement 
the integrated natural resource management plans.
    During the course of this hearing I hope to learn from our 
witnesses how many integrated natural resource management plans 
have been implemented, whether the consultation process is 
working, if a sufficient number of professionally trained 
personnel have been retained as employees and not contractors 
for the Department of Defense as the law requires, and whether 
the Disabled Sportsmen's Access Act has been a success.
    I look forward to hearing from our witnesses this morning 
on both panels.
    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Good morning. Today, the Subcommittee will hear testimony on H.R. 
1497, a measure introduced by Chairman Richard Pombo to extend the 
authorization for Title I of the Sikes Act.
    This law, which was first enacted in 1960, is responsible for the 
conservation of fish, wildlife and their habitat at some 25 million 
acres of military land. The Department of Defense has some 400 military 
installations throughout the United States that contain wildlife 
resources. In fact, nearly 300 Federally listed threatened and 
endangered species reside on those lands under the jurisdiction of DOD. 
In many ways, these DOD lands are a unique ecosystem.
    In 1997, this law was reauthorized and a number of significant 
changes were made to the underlying statute. The most significant 
modification was the requirement that the Department of Defense prepare 
a comprehensive integrated natural resource management plan for each of 
its installations that have plant and animal species. These plans would 
include an inventory of fish and wildlife resources, efforts to protect 
wetlands, how natural resource laws will be enforced, whether wildlife-
oriented recreation will be permitted and how our vital fish and 
wildlife populations will be managed in the future.
    In addition, the law now requires that the Department submit these 
plans for public review and that they be written in full consultation 
with the Fish and Wildlife Service and the affected states. Finally, 
P.L. 105-85 stipulated that the Department must maintain ``a 
significant number of professionally trained natural resource 
management personnel'' to prepare and implement integrated natural 
resource management plans.
    During the course of this hearing, I hope to learn from our 
witnesses how many integrated natural resource management plans have 
been implemented; whether the consultation process is working; if a 
sufficient number of professionally trained personnel have been 
retained as employees and not contractors for the Department of Defense 
as the law requires and whether the Disabled Sportsmen's Access Act has 
been a success.
    I look forward to hearing from our distinguished witnesses and I am 
pleased to recognize the Ranking Democratic Member, the Honorable Frank 
Pallone.
                                 ______
                                 
    Mr. Gilchrest. I will yield now to the gentleman from New 
Jersey, Mr. Pallone.

 STATEMENT OF THE HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. It is especially 
appropriate for the Subcommittee to examine the Sikes Act at a 
time when our military preparedness is being put to the test, 
and when the Department of Defense is pursuing efforts to 
procure exemptions from some environmental laws, and today we 
will examine the requirements of the Sikes Act with regard to 
the management of natural resources in military installations, 
as well as whether the DOD has successfully implemented those 
requirements.
    Few people realize that the Pentagon is the third largest 
Federal land manager in the U.S. Even fewer people would 
dispute that the multipurpose management of 25 million acres of 
military land is a huge responsibility and a tremendous 
challenge when considering the limited funding and often 
conflicting missions.
    In light of these multiple responsibilities the Sikes Act 
was intended to clarify the military's natural resource 
obligations, and today I look forward to hearing from our 
witnesses on whether the policies of the Sikes Act are clear, 
effective and well implemented by DOD. I believe thorough 
implementation of the Act's requirements is critical to 
conservation and the maintenance of environmental quality on 
these important Federal lands, and it is the responsibility of 
this Subcommittee to address any shortcomings in the 
implementation of this law should we find any.
    Mr. Chairman, I am particularly interested in the 
development and implementation of the required integrated 
natural resource management plans or INRMPs. Thoughtful 
consultation between the military, U.S. Fish and Wildlife and 
State wildlife agencies is vital to ensure that INRMPs are 
effective at protecting natural resources and flexible enough 
to accommodate military operations. However, the DOD has 
recently claimed that environmental laws, especially the 
Endangered Species Act, have encroached on and diminished 
military readiness and training activities. In the request for 
legislative relief, the Department has sought to substitute 
INRMPs for critical habitat designations made under the ESA.
    I cannot help but wonder do we have enough information at 
this time about the effectiveness of INRMPs in order to render 
an intelligent judgment on such a proposal? I remind my 
colleagues that the track record for INRMPs is woefully short 
and incomplete as many INRMPs have been completed only in the 
past 18 months. Furthermore, numerous critics contend the 
Department has purposely outsourced civilian environmental 
specialists responsible for implementing INRMPs in an effort to 
weaken or compromise its internal ability to implement the Act.
    I would like to understand why the DOD is outsourcing these 
positions when the Federal Activities Inventory Reform Act of 
'98 and the A-76 regulations require the preferential use of 
qualified Federal employees for such positions. These concerns 
are not trivial. Before making a decision on whether INRMPs 
would be an appropriate alternative to critical habitat 
designations, we first need to evaluate objectively and fairly 
the effectiveness and value of the INRMPs, and any action prior 
to a thorough analysis would be premature and could undermine 
the large share of the Nation's natural resources that are now 
managed by the Department of Defense.
    I just wanted to say, Mr. Chairman, I look forward to 
hearing from today's witnesses so we can begin an unbiased 
analysis of these issues and ultimately make an informed 
recommendation to the Congress. Thank you.
    [The prepared statement of Mr. Pallone follows:]

Statement of The Honorable Frank Pallone, a Representative in Congress 
                      from the State of New Jersey

    Thank you, Mr. Chairman, for holding this hearing. It is especially 
appropriate for the Subcommittee to examine the Sikes Act at a time 
when our military's preparedness is being put to the test, and when the 
Department of Defense is pursuing efforts to procure exemptions from 
some environmental laws. Today we will examine the requirements of the 
Sikes Act with regard to the management of natural resources in 
military installations, as well as whether the Department of Defense 
has successfully implemented those requirements.
    Few people realize that the Pentagon is the third largest Federal 
land manager in the United States. Even fewer people would dispute that 
the multi-purpose management of 25 million acres of military land is a 
huge responsibility and a tremendous challenge, when considering the 
limited funding and often-conflicting missions.
    In light of these multiple responsibilities, the Sikes Act was 
intended to clarify the military's natural resource obligations. Today 
I look forward to hearing from our witnesses on whether the policies of 
the Sikes Act are clear, effective, and well-implemented by the 
Department of Defense. I believe thorough implementation of the Act's 
requirements is critical to conservation and the maintenance of 
environmental quality on these important Federal lands--and it is the 
responsibility of this Subcommittee to address any shortcomings in the 
implementation of this law, should we find any.
    I am particularly interested in the development and implementation 
of the required Integrated Natural Resource Management Plans, or INRMPs 
(``inramps''). Thoughtful consultation between the military, the U.S. 
Fish and Wildlife Service, and State wildlife agencies is vital to 
ensure that INRMPs are effective at protecting natural resources and 
flexible enough to accommodate military operations.
    However, the Department of Defense has recently claimed that 
environmental laws, specifically the Endangered Species Act, have 
encroached on and diminished military readiness and training 
activities. In their requests for legislative relief, the Department 
has sought to substitute INRMPs for critical habitat designations made 
under the ESA.
    I cannot help but wonder; do we have enough information at this 
time about the effectiveness of INRMPs in order to render an 
intelligent judgment on such a proposal? I remind my colleagues that 
the track record for INRMPs is woefully short and incomplete, as many 
INRMPs have been completed only in the past 18 months. Furthermore, 
numerous critics contend that the Department has purposefully ``out-
sourced'' civilian environmental specialists responsible for 
implementing INRMPS, in an effort to weaken or compromise its internal 
ability to implement the Act. I would like to understand why the 
Department is outsourcing these positions when the Federal Activities 
Inventory Reform Act of 1998 and the A-76 regulations require the 
preferential use of qualified Federal employees for such positions.
    These concerns are not trivial. Before making a decision on whether 
INRMPs would be an appropriate alternative to critical habitat 
designations, we first need to evaluate objectively and fairly the 
effectiveness and value of the INRMPs. Any action prior to a thorough 
analysis would be premature and could undermine the large share of the 
Nation's natural resources managed by the Department of Defense.
    I look forward to hearing from today's witnesses, so that we can 
begin an unbiased analysis of these issues and ultimately make an 
informed recommendation to Congress.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Opening statement, Mr. Saxton?
    Mr. Saxton. No, Mr. Chairman.
    Mr. Gilchrest. The gentlelady from Guam?

STATEMENT OF MADELEINE Z. BORDALLO, A DELEGATE TO CONGRESS FROM 
                              GUAM

    Ms. Bordallo. Good morning, and welcome to all of our 
witnesses, and thank you, Chairman Gilchrest and Ranking Member 
Pallone. I would like to also welcome our colleague, Duke 
Cunningham, from the State of California.
    I thank you, Mr. Chairman, for holding this hearing on 
reauthorization of the Sikes Act. The Sikes Act, Mr. Chairman, 
is particularly important to Guam, an island of only 212 square 
miles, as nearly one-third of our land is owned and managed by 
the Department of Defense. Furthermore, we have a particular 
challenge before us with the recent U.S. Fish and Wildlife 
Service proposal to designate new critical habitat on roughly 
30,000 acres of land in Guam. This is land outside the current 
Guam wildlife refuge overlay. This proposal includes Navy land 
that does not currently contain endangered species, and which 
has been heavily utilized for critical special forces jungle 
training.
    This critical habitat proposal has been the source of much 
consternation in Guam within both the military and the civilian 
communities given Guam's past experiences with military land 
condemnations, critical habitat designation in the north at 
Ritidian in 1993. The jeopardy this new proposal poses for 
military readiness and the fact that it is not the actions of 
the Department of Defense or the people of Guam that threaten 
the restoration of endangered species such as the Marianas 
fruit bat, the Marianas crow and Guam Micronesian kingfisher, 
but rather the predatory behavior of the invasive brown tree 
snake, which arrived in Guam in 1950 by military cargo.
    This is why the DOD request to allow INRMPs under the Sikes 
Act to serve as adequate substitutes to critical habitat 
designation under ESA is an important matter for the people of 
Guam. Guam remains ready and willing to work with the military 
to strengthen INRMPs, and I support a strong and up to date 
Sikes Act, that reflects both the growth of DOD's conservation 
programs and the ability to manage natural resources in an 
integrated approach with public involvement in the process and 
in support of the military mission.
    Thank you, Mr. Chairman. I look forward to the testimony of 
our witnesses.
    Mr. Gilchrest. Thank you.
    I will yield to the gentleman from California, Mr. 
Cunningham.
    Mr. Saxton. Mr. Chairman.
    Mr. Gilchrest. Mr. Saxton?

STATEMENT OF THE HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Saxton. Thank you, Mr. Chairman. I just wanted to take 
a moment to welcome the witnesses, Mr. DuBois, with whom we 
have worked over the past couple of years. I would also like to 
welcome my fellow New Jerseyan, Gene Rurka from I think it 
might be Mr. Pallone's district, I am not sure. And Gene is a 
great outdoorsman and sportsman, and member of the Safari Club, 
where he heads up the Humanitarian Service Committee, and the 
Committee under his leadership has made great strides in making 
it possible for people with disabilities to take part in 
outdoor sports, hunting, photography, fishing, and so it is 
with great pleasure, Gene, that we welcome you here today. 
Thank you for your participation.
    My unfortunate early departure--I was looking forward to 
hearing your testimony, but I have a 10:30 that I can't miss, 
so I am going to have to leave. Thank you.
    Mr. Gilchrest. Thank you, Mr. Saxton.
    Mr. Cunningham, you want to speak?
    Mr. Cunningham. It is good to see Gene again. I attended 
Safari Club with Gene up in New Jersey. I had never been in New 
Jersey before that.
    Mr. Saxton. Hasn't been back since either. He wore out his 
welcome.
    [Laughter.]
    Mr. Cunningham. But I am here. One of the reasons I 
attended is I served on this Committee as a freshman when the 
Committee was a little different.
    Mr. Gilchrest. Merchant Marine Committee.
    Mr. Cunningham. Merchant Marine Committee. Sat right here 
at this desk, and we did a bill for disabled sportsmen, and Lew 
Deal, Colonel Deal was here, and that is the reason I mainly 
came is to just give my best wishes to Colonel Deal and the 
program that he is doing for disabled sportsmen. You can 
imagine somebody in a wheelchair, pulling up to a dock and 
wanting to go fishing where there is no rail for safety. It is 
very dangerous for them. Or establish outdoor recreation for 
disabled sportsmen, both in the military and civilian, and I 
just wanted to compliment him and his program, and it is going 
great guns. So that is the main reason I came, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Cunningham.
    Our three witnesses on the first panel this morning are Mr. 
Raymond DuBois, Deputy Under Secretary of Defense for 
Installations and Environment; Mr. Benjamin Tuggle, Chief, 
Division of Federal Program Activities, U.S. Fish and Wildlife 
Service; and Mr. John Baughman, Executive Vice President, 
International Association of Fish and Wildlife Agencies.
    Gentlemen, thank you very much for coming this morning. We 
look forward to your testimony.
    Mr. DuBois, you may begin, sir.

   STATEMENT OF RAYMOND F. DuBOIS, DEPUTY UNDER SECRETARY OF 
 DEFENSE FOR INSTALLATIONS AND ENVIRONMENT, U.S. DEPARTMENT OF 
                            DEFENSE

    Mr. DuBois. Thank you, Mr. Chairman, and distinguished 
members of this Committee. On behalf of Secretary Rumsfeld, I 
want to thank you for this opportunity to discuss with you the 
Sikes Act and its importance to the military.
    As has been mentioned, DOD has control or ownership of 
roughly 25 million acres of land. Many of these acres of land 
are extraordinarily rich in biological resources, and the Sikes 
Act has been the--underline ``the''--major contributor to DOD's 
success in managing these resources. For more than 40 years the 
Sikes Act has proven instrumental in helping our installations, 
in coordination with the U.S. Fish and Wildlife Service, and 
State fish and game agencies, to develop many cooperative plans 
and projects that have benefited fish and game and other 
natural resources on DOD lands.
    Even more important today, the Sikes Act is needed to help 
ensure our ability to provide for the increasing complexity of 
the military mission and the concentration of training and 
readiness activities on remaining DOD installations.
    Now, under the 1997 amended Sikes Act, each integrated 
natural resource management plan is designed and implemented to 
ensure no net loss in the capability of the installation to 
support the military mission. We believe these plans provide 
the best possible management for our lands and our resources. 
Management under the Sikes Act allows us more flexibility to 
use our training lands as we need them, while still protecting 
over 300 threatened and endangered species and other natural 
resources. We believe that a well-designed and implemented 
INRMP makes critical habitat designation on military 
installations in most cases unnecessary. DOD expended over $91 
million in fiscal 2002, as I reported to Congress, to prepare 
and implement the INRMPs.
    I would like to turn to four specific areas quickly on 
which the Subcommittee specifically requested my comment.
    No. 1: the preparation process for the first round of 
INRMPs. DOD, as well as the Fish and Wildlife Service, and the 
State fish and game agencies faced a rather big challenge when 
Congress passed the Sikes Act in November 1997. Those daunting 
challenges to prepare and coordinate nearly 373 new INRMPs 
caused, needless to say, somewhat of a bottleneck in the 
Department, and although we did not fully achieve this goal, 
most of our installations had INRMPs approved by the 2001 
November deadline.
    The implementation of INRMPs. We intend, the Department 
intends that its new INRMPs be dynamic and fully functional 
planning tools for natural resource management. This desire for 
enhanced long-term performance was a driving force behind the 
establishment of detailed installation by installation metrics. 
In October of 2002 I specifically sent instructions to the 
service secretaries in this regard. This new guidance requires 
each installation to track its INRMP implementation.
    Now, Section 103 of the Sikes Act specifically authorizes 
the Department to provide persons with disabilities access to 
the same outdoor recreation as the general public. We have 
worked closely with the Paralyzed Veterans of America and other 
organizations to accept portable elevating hunting blinds and 
other specialized equipment for use by disabled sportsmen.
    DOD also conducted a one-time survey of natural resource 
functions in 2001, and that survey identified 868 in house 
positions that perform natural resource management functions 
and associated services. This gets to your question, Mr. 
Chairman, about the so-called outsourcing issue.
    Now, these natural resource management professionals--and 
let me be very clear about this--are essential in our view to 
the long-term oversight and management of the valuable natural 
resources entrusted to our care. Public and regulator 
confidence in DOD's commitment to conserving natural resources 
entrusted to us depends both upon our retaining this cadre of 
natural resource professionals, and on our using most 
efficiently all the tools available to us. In some cases 
competition is the proven method to determine the best source 
whether Government or private sector. In no case, however, will 
we make any decision that would threaten our ability to 
preserve these important natural treasures.
    This Subcommittee is keenly aware of our ability to ensure 
access to its lands for military preparedness purposes, and we 
know and you know that it sometimes is becoming difficult to do 
so.
    In response to these concerns, the Administration submitted 
to Congress the Readiness and Range Preservation Initiative. 
Mr. Chairman, your interests with respect to the Sikes Act has 
a direct bearing on one RRPI provision, a provision that would 
permit approved INRMPs in appropriate circumstances to 
substitute for critical habitat designation. I look forward to 
responding to your, and especially Mr. Pallone's questions 
pursuant to his opening remarks in this regard.
    We believe that designated critical habitat on military 
installations under the Endangered Species Act is for the most 
part duplicative because our Sikes Act mandated INRMPs already 
provide the, quote, ``special management or protection needed 
to ensure the survival and eventual recovery of listed, 
threatened and endangered species.'' Critical habitat 
designation overlaid on top of existing and approved INRMPs, in 
our view, unnecessarily limits commanders on the ground and 
their abilities to manage an installation appropriately to 
accommodate and balance both the military mission and the 
protection of natural resources.
    I want to just add briefly here at the end, Mr. Chairman, 
if I might, as luck will have it, last night I sat next to a 
former staffer for Congressman Bob Sikes, now departed, of 
Florida. I said, ``I am testifying tomorrow before Congressman 
Gilchrest and the Subcommittee on Fisheries on the Sikes Act 
reauthorization. Tell me a little bit about the man who saw the 
light and saw the future in terms of his legislation back in 
1960.''
    And this fellow, who is a little bit older than I am said, 
``You have got to remember, Ray, that Bob Sikes was first and 
foremost an outdoorsman, a man who loved sports fishing and 
loved the idea that sportsmen would have access to some of 
these magnificent undeveloped properties within the military 
inventory. He also, as you know, had Eglund Air Force Base, 
Tindall Air Force Base, Pensacola, some crown jewels in our 
military inventory in his district, and he saw that a balance 
could be achieved when he introduced that legislation now over 
40 years ago.''
    So just as a personal aside, I was very touched to hear the 
story about how Congressman Sikes back in those days saw it, 
and here we are today discussing it and trying to improve upon 
it, and the Department of Defense wants to do everything it can 
to honor his memory and honor his legislation.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. DuBois follows:]

Statement of Raymond F. DuBois, Jr., Deputy Under Secretary of Defense 
      (Installations and Environment), U.S. Department of Defense

INTRODUCTION
    Mr. Chairman and distinguished members of this Subcommittee, I 
appreciate the opportunity to discuss with you the Sikes Act and its 
importance to the military.
BACKGROUND
    The Sikes Act has been the major contributor to the success of the 
DoD's conservation program. For more than 40 years, it has proven 
instrumental in helping our installations, in coordination with the 
U.S. Fish and Wildlife Service (FWS) and State fish and game agencies, 
to develop many cooperative plans and projects that have benefitted 
fish and game resources and other natural resources on DoD lands. Even 
more important today, the Sikes Act is also needed to help ensure the 
Services' ability to provide for the increasing complexity of the 
military mission and the concentration of training and readiness 
activities on the remaining Defense installations.
    In The National Defense Authorization Act for Fiscal Year 1998, 
Congress amended the Sikes Act to require installation commanders to 
prepare and implement Integrated Natural Resources Management Plans 
(INRMPs) by November 2001. The Department of Defense (DoD) strongly 
supported these amendments to the Sikes Act and worked closely with 
both the Department of the Interior's Fish and Wildlife Service and the 
International Association of Fish and Wildlife Agencies to recommend 
changes to Congress. DoD and the Military Services greatly appreciate 
the efforts of this Committee, as well as the efforts of the Department 
of the Interior and the International Association of Fish and Wildlife 
Agencies, in the development of these amendments to strengthen and 
improve the original Sikes Act.
IMPLICATIONS OF RECENT SIKES ACT AMENDMENTS
    Under the 1997 amended Sikes Act, each integrated natural resources 
management plan is designed and implemented to ensure ``no net loss'' 
in the capability of the installation to support the military mission.
    These plans consequently provide the installation commander with an 
effective management tool for integrating operational requirements with 
natural resource management goals and projects. Land management 
decisions reflect and support operational requirements, and focus on 
maintaining the viability and sustainability of the land to support the 
training and readiness activities.
    The principal changes reflected in the re-authorized Sikes Act:
    <bullet> Lprovide for more comprehensive and up-to-date INRMPs that 
embody emerging principles related to biodiversity protection and 
adaptive management;
    <bullet> Lenhance the ability of installation commanders to manage 
natural resources and ensure that mission requirements can be met; and
    <bullet> Lallow DoD to take full advantage of the expertise of the 
Fish and Wildlife Service (FWS) and the State resource agencies in 
preparing integrated natural resource management plans for military 
lands, while neither jeopardizing the installation commander's 
discretion to ensure the preparedness of the armed forces nor the 
ability of the FWS and the States to exercise the legal authority they 
each possess apart from the Sikes Act.
    A Sikes Act amendment passed in Fiscal Year 1999, to provide 
hunting and fishing access to military lands for disabled sportsmen.
    We know that the future will pose new challenges to the Department 
in its continuing effort to integrate the military mission of ensuring 
troop readiness while meeting the obligations of responsible natural 
resources stewardship. Installation-level natural resource 
professionals within the Components must continue to demonstrate that 
these two goals are compatible and that with up-front planning, 
adequate biological inventories, good communication, and the use of 
``lessons learned,'' conflicts can be avoided. Conflicts range from 
keeping tanks 50 feet from the habitat for red-cockaded woodpecker 
habitat to scheduling deer hunting and training for the same areas on 
an installation.
    To meet these goals, the Sikes Act now requires the military to 
employ the principles of ecosystem management at nearly 373 
installations ``using INRMPs to provide the blueprint for such 
management. Every one of our installations with natural resource 
requirements are required to have one of these plans in place. Further, 
the plans must reflect the mutual agreement of the U.S. Fish and 
Wildlife Service and appropriate State fish and wildlife agency 
concerning the conservation, protection, and management of fish and 
wildlife resources..
    In October 2002, we released new guidance for these INRMPS that 
will improve coordination with stakeholders and provide performance 
metrics to ensure the long-term viability of these plans. This updated 
guidance is based on the lessons learned from preparing and 
implementing these plans over the past several years. These plans, 
designed to embrace emerging scientific principles related to ecosystem 
management and biodiversity protection, provide a broad focus on the 
maintenance of healthy and fully functional ecosystems.
    We believe that these plans provide the best possible management 
for our lands. We also believe that they provide excellent management 
for imperiled plant and animal species. Management under the Sikes Act 
allows us more flexibility to use our training lands, as we need them, 
while still protecting the over 300 threatened and endangered species 
that are now part of the management requirement for the lands under the 
administrative control of the Components. We believe that a well-
designed and implemented, INRMP, makes critical habitat designation on 
military installations in many cases unnecessary.
IMPLEMENTATION OF SIKES ACT AMENDMENTS
    I would now like to turn to the four specific areas on which the 
Subcommittee requested comments:
    <bullet> LHow the INRMP preparation process worked for the first 
round of INRMPs.
    <bullet> LHow DoD intends to implement the new INRMPs and adapt to 
new information.
    <bullet> LHow DoD has implemented the provisions of the Disabled 
Sportsmen's Access Act.
    <bullet> LWhere DoD stands on outsourcing natural resources-related 
positions.
The Preparation Process for the First Round of INRMPs
    The Department of Defense, as well as the Fish and Wildlife Service 
and the State fish and game agencies, faced a daunting challenge when 
Congress passed the Sikes amendments in November 1997--to prepare and 
coordinate nearly 373 new INRMPs. Although we did not fully achieve 
this goal, most of our installations had INRMPs approved by the 
November 2001 deadline.
    We and our partners learned a great deal over the past five years 
that led to a steady improvement in how INRMPs are prepared and 
coordinated. I would like to share a few of the most important lessons 
we learned:
    <bullet> LHeadquarters-level oversight is essential. We formed a 
Sikes Coordination Group in January 2001 including representatives from 
the DoD Components, the U.S. Fish and Wildlife Service, and the 
International Association of Fish and Wildlife Agencies to oversee plan 
preparation and review, and to mediate any unresolved issues. This 
group continues to meet to track INRMP revisions and implementation.
    <bullet> LStaggered preparation and coordination of INRMPs would 
eliminate review bottlenecks. Many INRMPs reached review offices during 
the first six months of 2001. This caused a significant resource strain 
on these offices. We issued new policy guidance in October 2002, that 
will eliminate this bottleneck.
    <bullet> LOther stakeholders need an effective voice in updating 
INRMPs. Although our initial implementing guidance specified that 
military installations should coordinate their INRMPs with military 
trainers and the public, as well as with Fish and Wildlife Service and 
State fish and game agencies, the Sikes Coordination Group determined 
that we could improve our outreach to these groups. Our new October 
2002 policy includes specific metrics for ensuring this coordination 
occurs and asks each installation to report on the disposition of 
comments received from each group of stakeholders.
Implementing INRMPs and Adapting to New Information
    The Department intends that its new INRMPs be dynamic and fully 
functional planning tools for natural resources management. This desire 
for enhanced long-term performance was a driving force behind the 
establishment of detailed installation-by-installation metrics in 
October 2002. This new guidance requires that each installation report 
a series of metrics intended to track its effectiveness in INRMP 
implementation. Specifically, each installation must report annually:
    <bullet> LWhether the INRMP contains a list of projects necessary 
to meet plan goals and objectives, as well as timeframes for 
implementation.
    <bullet> LFunding requirements to implement the INRMP, including 
dollars required for and funded for both ``must fund'' (Class 0 and 1) 
and ``nice to have'' (Class 2 and 3) projects.
    <bullet> LA list of all unfunded Class 0 and 1 project requirements 
in excess of $50,000.
    In addition, we plan to initiate a study on INRMP implementation at 
selected military installations by the end of the fiscal year. This 
Legacy-funded project will identify both successes and opportunities 
for improvements in how to implement our INRMPs best.
    The Department expects that INRMPs will be modified as needed to 
address changing natural resource priorities and mission requirements. 
Each INRMP must be reviewed annually and updated as appropriate every 
five years or sooner if conditions warrant. DoD's conservation policy 
requires that projects be monitored and evaluated for effectiveness.
Implementing the Disabled Sportsmen's Access Act
    Section 103 of the Sikes Act authorizes the Department to provide 
persons with disabilities access to the same outdoor recreation 
opportunities (including fishing, hunting, trapping, wildlife viewing, 
boating, and camping) as the general public. This legislation also 
permits DoD to accept the volunteer services of individuals and 
organizations, as well as donations of property to facilitate these 
provisions. The Department reaffirmed its support for disabilities 
access in an August 2002 policy memo to the Military Departments that 
encourages our installations to implement these provisions.
    The Components have worked closely with the Paralyzed Veterans of 
America (PVA) and other organizations to accept portable elevating 
hunting blinds and other specialized equipment for use by disabled 
sportsmen. PVA donated various items of equipment to Camp Lejeune, 
Naval Weapons Station Yorktown, Little Rock Air Force Base, and Naval 
Air Station Meridian in 2002, and plans to donate additional equipment 
at Fort Chaffee, Fort Benning, Fort Bragg, and MacDill Air Force Base 
this year.
Competition of Natural Resources-Related Positions
    DoD conducted a one-time survey of natural resource functions in 
2001. That survey identified 868 in-house positions that perform 
natural resource management functions and associated services, 
including 259 devoted to the inherently governmental work of 
enforcement and policy-related natural resource management activities.
    These natural resource management professionals are essential to 
the long-term oversight and management of the valuable natural 
resources entrusted to our care. These trained professionals implement 
a wide variety of valuable functions for our military installations, 
including:
    <bullet> LCoordinating with military operators to ensure the 
fullest possible use of our lands and waters for training and testing.
    <bullet> LWorking with environmental regulators to minimize the 
restrictions on the use of our lands, while ensuing that we conserve 
our natural resources for future use.
    <bullet> LIdentifying and implementing across-the-fence-line 
partnerships with stakeholders in surrounding communities, including 
noxious weed control, fish and game management, and natural resources 
law enforcement.
    <bullet> LImproving mission safety and realism by improving 
vegetation cover, reducing fire threat and bird and wildlife aircraft 
strike hazard potential.
    <bullet> LIn 2001, we concluded that more than 500 of our in-house 
positions do not require the discretionary exercise of government 
authority; as a consequence, these positions were determined to be 
``subject to review for competition.'' Nevertheless, public and 
regulator confidence in DoD's commitment to conserving the natural 
resources entrusted to us depends both on our retaining an adequate 
cadre of natural resources professionals and on our using most 
efficiently all the tools available to us to do the job well. In some 
cases, the private sector may have expertise unavailable to us in-house 
or be able to accomplish certain field work more efficiently than can 
we; it these cases, competition is the proven method to determine the 
best source, whether government or private sector. In no case, however, 
will we make any decision that would threaten our ability to preserve 
these important natural treasures.
EMERGING CHALLENGES
    As this Committee knows, DoD's roughly 25 million acres of land are 
extraordinarily rich in biological resources. This biodiversity may be 
attributed to:
    <bullet> LActive stewardship by DoD's extensive professional 
natural resources staff;
    <bullet> LRequirements that military lands remain undeveloped in 
order to serve as maneuver areas, impact areas, or buffer zones;
    <bullet> LDoD installations occurring in virtually every ecosystem 
in the nation; DoD lands are the only Federal holdings in some 
ecosystems; and,
    <bullet> LSurrounding property being developed so quickly that DoD 
lands have become comparatively richer in many plants and animals that 
have been extirpated elsewhere.
    However, this Committee is also keenly aware that DoD's ability to 
ensure access to its lands for military preparedness purposes is 
becoming increasingly difficult because:
    <bullet> LAt the same time, new weapons with greater stand-off 
distances and changes in war-fighting tactics require DoD to provide 
realistic training over much larger areas; and,
    <bullet> LDevelopment outside our installation borders often 
triggers the imposition of more pervasive restrictions on DoD lands, 
which have become the ``last refuge'' for many threatened and 
endangered plants and animals.
    Installations and ranges are often forced to implement ``work-
arounds'' to meet new natural resource restrictions and still ensure 
that our soldiers, sailors, airmen, and marines are adequately trained.
    In response to these concerns, the Administration submitted to 
Congress last year an eight-provision legislative package, the 
Readiness and Range Preservation Initiative (RRPI). Congress enacted 
three of those provisions as part of the National Defense Authorization 
Act for Fiscal Year 2003. We are grateful to Congress for these 
provisions.
    Last year, Congress also began consideration of the other five 
elements of our Readiness and Range Preservation Initiative. These five 
proposals remain essential to range sustainment and are as important 
this year as they were last year--maybe more so. The five provisions 
submitted this year reaffirm the principle that military lands, marine 
areas, and airspace exist to ensure military preparedness, while 
ensuring that the Department of Defense remains fully committed to its 
stewardship responsibilities.
    Mr. Chairman, your interests with respect to the reauthorization of 
the Sikes Act and the importance of the Sikes Act to the military 
mission have a direct bearing on one of the five remaining RRPI 
provisions, a provision that would permit approved Integrated Natural 
Resource Management Plans in appropriate circumstances to substitute 
for critical habitat designation.
    Mr Chairman, I would briefly like to describe how the work by your 
Committee to reauthorize and strengthen the Sikes Act makes this 
proposal not only possible, but makes it a sensible approach for both 
military responsibilities--readiness and environmental stewardship.
Designation of Critical Habitat
    Under the Endangered Species Act (ESA), the Secretary of the 
Interior is required to designate ``critical habitat'' at the time a 
species is listed as threatened or endangered.
    While critical habitat designation can provide some benefit to 
species that are already listed, the Fish and Wildlife Service believes 
that such additional benefits are less than those a species receives 
from the initial act of adding it to the list of threatened and 
endangered species. For example, under Section 7 of the ESA, Federal 
agencies are already prohibited from taking actions that may jeopardize 
the continued existence of a listed species.
    Despite its view that critical habitat designation typically 
duplicates the protections already provided by the jeopardy standard 
for most species, the FWS has been inundated with citizen lawsuits 
challenging its failure to designate critical habitat.
    DoD believes designating critical habitat on military installations 
is duplicative, for the most part, because our Sikes Act-mandated 
integrated natural management plans already provide the ``special 
management considerations or protection'' needed to ensure the survival 
and contribute toward the eventual recovery of listed Threatened & 
Endangered (T&E) species.
    Critical habitat designation overlaid on top of existing and 
approved INRMPs unnecessarily limits a commander's ability to manage an 
installation appropriately to accommodate both the military mission and 
protection of the natural resources.
    DoD would like to be given express credit for approved INRMPs, as 
we have requested as part of our Readiness and Range Preservation 
legislative proposal. We believe the rationale for this proposal is 
compelling:
    <bullet> LINRMPs already provide adequately for the conservation 
and rehabilitation of natural resources on military bases, including 
the habitats necessary to support T&E recovery.
    <bullet> LINRMPs must be prepared ``in cooperation with'' the FWS 
and must reflect the ``mutual agreement'' of the parties (i.e., DoD, 
FWS, and the State) concerning the conservation, protection, and 
management of fish and wildlife resources.
    <bullet> LThe public must be afforded the opportunity to comment on 
proposed INRMPs (in accordance with our October 2002 policy on INRMPs, 
the Military Services are following the NEPA process to promulgate 
their INRMPs).
    <bullet> LMost INRMPs for bases where listed T&E species are 
present either will be the subject of a section 7 consultation or will 
incorporate pre-existing plans that were themselves the product of an 
ESA consultation.
    When the Sikes Act was last amended, it had two very innovative 
provisions:
    <bullet> LRecognition that certain public land has been dedicated 
by Congress to a military purpose--that is, its use as a location for 
training military personnel and testing military equipment was 
recognized as both necessary and desirable ; and,
    <bullet> LRecognition that a partnership to manage these military 
lands involving the Department of Defense, the U.S. Fish and Wildlife 
Service, appropriate State agencies, and other stakeholders can create 
a synergism that is good for all concerned.
CONCLUSION
    Mr. Chairman, DoD lands are intended to provide and must remain 
available to support critical military training, testing, and 
operations. This can be accomplished consistent with the maintenance of 
biodiversity on these lands, as DoD consistently has shown to be true.
    It is in DoD's own interest to ensure that the lands entrusted to 
it remain in good health in order to provide for realistic training, 
now and in the future.
    In closing, Mr. Chairman, I sincerely thank you for this 
opportunity to discuss the Sikes Act and its importance to the 
military. We appreciate your strong support of our military, and I look 
forward to working with you.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much. Thanks for those 
touching words about the original author of the legislation.
    Dr. Benjamin Tuggle.

  STATEMENT OF BENJAMIN N. TUGGLE, CHIEF, DIVISION OF FEDERAL 
       PROGRAM ACTIVITIES, U.S. FISH AND WILDLIFE SERVICE

    Mr. Tuggle. Good morning. Thank you, Mr. Chairman, members 
of the Subcommittee. Thank you for this opportunity to present 
testimony regarding the reauthorization of the Sikes Act.
    The Fish and Wildlife Service appreciates the 
Subcommittee's interest in conserving fish and wildlife 
resources on military installations, and we strongly support 
your efforts to reauthorize the Sikes Act.
    The biggest land management challenge for the Department of 
Defense may be its need to use air, land and water resources 
for military training and testing, while conserving natural 
resources for future generations. The Sikes Act has provided 
the Fish and Wildlife Service and the affected States the 
opportunity to help DOD meet this challenge, and we are pleased 
to say that we believe DOD has embraced its stewardship 
responsibilities for its land management.
    We have long recognized the value of conserving fish and 
wildlife resources on 25 million acres of DOD managed lands. 
Many military installations have been sheltered from adverse 
impacts and contain rare and unique plant and animal species 
and native habitats. These lands and the species they support 
are essential components of the Nation's biodiversity.
    The last reauthorization of the Sikes Act in 1997 required 
the development and implementation of integrated natural 
resource management plans, which I will fondly refer to in the 
future as INRMPs, by November 18th, 2001. The law emphasized 
that INRMPs should be prepared by installations in cooperation 
with the Fish and Wildlife Service and the States. It 
anticipated a fully collaborative process to create plans that 
effectively conserved, protected, and managed fish and wildlife 
resource without compromising military mission.
    Our work on INRMPs is conducted primarily by our staff in 
our field and regional offices. These employees have large 
workloads and numerous responsibilities beyond the Sikes Act. 
Despite these challenges, our staffs exerted tremendous effort 
to assist DOD in meeting that November 2001 deadline, and we 
complete the majority of these INRMPs. We are proud of this 
effort and we continue to work extensively with DOD to complete 
INRMPs and revise these plans.
    My written testimony provides some of the many examples of 
successful partnerships that have been forged with DOD through 
the Sikes Act, and as a result we have gotten meaningful 
conservation benefits. We offer the following thoughts as we 
look forward to reauthorization.
    The key to successful INRMPs is early involvement of 
resource agencies in the development and revision of these 
plans. Resource agencies also need to be involved in the 
implementation and evaluation of INRMPs. We are working 
collaboratively with DOD to help achieve these goals by 
developing complementary guidance in terms of how we implement 
the Sikes Act.
    We also want to maximize our efficiency in reviewing and 
approving INRMPs. Approval of INRMPs is important because it 
provides DOD with a heightened level of certainty that they are 
meeting their environmental responsibilities while continuing 
to provide military readiness training. TO aid in the timely 
completion and approval of these management plans and to 
improve the value of those plans to fish and wildlife 
conservation, the Fish and Wildlife Service and DOD have 
developed ways to facilitate funding transfers on a 
reimbursable basis to hire staff whose only duties are related 
to Sikes Act and other environmental coordination issues with 
DOD. We would like to continue and expand this partnership to 
ensure that our role in developing and implementing INRMPs is a 
meaningful and efficient process.
    In conclusion, the Fish and Wildlife Service is looking 
forward to continuing our cooperation with DOD and the States. 
The conservation management expertise of the fish and wildlife 
service in the States, combined with the rich natural resources 
of DOD installations and DOD's knowledge of training 
requirements provides an unprecedented opportunity for 
cooperation, management and utilization of these natural 
resources. We want to continue our collaboration to development 
effective INRMPs that are designed to conserve natural 
resources and promote public access and recreation, while 
ensuring that military readiness is accomplished.
    Mr. Chairman, once again we appreciate your efforts to 
authorize the Sikes Act. We are looking forward to working with 
you and members of the Subcommittee and our other partners 
during the legislative process to identify and enact any 
amendment that would approve this most important conservation 
law.
    This concludes my remarks. I will be happy to answer any 
questions that you may have.
    [The prepared statement of Mr. Tuggle follows:]

Statement of Dr. Benjamin N. Tuggle, Chief, Division of Federal Program 
 Activities, Fish and Wildlife Service, U.S. Department of the Interior

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present testimony on the Sikes Act Reauthorization Act 
of 2003. The Fish and Wildlife Service appreciates your interest in 
conserving fish and wildlife resources on military installations, and 
the Subcommittee's leadership efforts to reauthorize the Sikes Act.
    The biggest land management challenge for the Department of Defense 
(DOD) may be the need to use its air, land, and water resources for 
military training and testing while conserving natural resources for 
future generations. The Sikes Act has provided the Fish and Wildlife 
Service and the affected States the opportunity to help DOD meet this 
challenge, and we are pleased to say that we believe DOD has embraced 
its stewardship responsibilities for the lands it manages. The Fish and 
Wildlife Service, working with the State fish and wildlife agencies, 
has established numerous effective partnerships with the military 
through the Sikes Act, resulting in collaborative natural resource 
management on installations while the military continues to 
successfully carry out its missions. We strongly support the 
reauthorization of the Sikes Act during this Congress to continue and 
expand these cooperative efforts with military installations.
History of the Sikes Act
    The Fish and Wildlife Service, the States, and DOD have long 
recognized the importance and value of conserving fish and wildlife 
resources on military lands. Prior to the enactment of the Sikes Act in 
1960, the Fish and Wildlife Service worked with DOD on fisheries 
management programs to develop recreational fishing opportunities on 
DOD installations. Passage of the Sikes Act formalized these 
cooperative efforts and, most importantly, gave Congressional 
recognition to the significant potential for fish and wildlife 
management and recreation on DOD lands.
    Over the decades, the Sikes Act has played an important role to 
ensure that fish, wildlife, and other natural resources on military 
installations are conserved in ways that are compatible with the 
missions of these installations. Subsequent amendments have expanded 
the authority of the Act to include improving fish and wildlife 
habitats, protecting threatened and endangered species, and developing 
multi-use natural resource management plans.
    The Sikes Act Improvement Act of 1997 broadened the scope of DOD 
natural resources programs, integrated natural resources programs with 
operations and training, embraced the tenets of conservation biology, 
invited public review, and strengthened funding for conservation 
activities on military lands. Underlying this commitment to conserve 
natural resources is the concurrent commitment that the military 
mission cannot be compromised. The Act required the development and 
implementation of Integrated Natural Resource Management Plans (INRMPs) 
for relevant installations by November 18, 2001. The Act emphasizes 
that the plans are to be prepared in cooperation with the Fish and 
Wildlife Service and the State fish and wildlife agencies and 
anticipated a truly collaborative process with full involvement of 
natural resource agencies. INRMPs also provide for public access to 
installations for enjoyment of natural resources, when practicable, and 
DOD seeks public comments on the plans.
    The Sikes Act states that INRMPs shall reflect mutual agreement of 
the installation commanders, the Fish and Wildlife Service, and the 
State fish and wildlife agencies. Ideally, all parties reach agreement 
on entire plans, but there is a minimum requirement that INRMPs reflect 
agreement on elements of plans for conservation, protection, and 
management of fish and wildlife resources. The Act neither enlarges nor 
diminishes each party's legal authorities. And it is important to note 
that INRMPs cannot, and do not, compromise the capability of 
installation lands to support the military mission.
Fish and Wildlife Service's roles and responsibilities under the Sikes 
        Act
    When implementing its responsibilities under the Sikes Act, the 
Fish and Wildlife Service focuses on: (1) evaluating the impacts of 
installation mission and activities on fish and wildlife; (2) ensuring 
that habitat important to fish and wildlife is taken into consideration 
in the development of INRMPs; and (3) identifying opportunities to 
enhance fish and wildlife resources for public benefits while 
accomplishing the missions of military installations. Several statutes 
guide our involvement in conservation planning, including the Fish and 
Wildlife Coordination Act, the Endangered Species Act, the Migratory 
Bird Treaty Act, and the National Environmental Policy Act.
    The Fish and Wildlife Service's work on INRMPs is conducted 
primarily at the Field and Regional Office levels. The Fish and 
Wildlife Service staff that do this work have large workloads and 
numerous responsibilities. Despite this, the Fish and Wildlife Service, 
working with State fish and wildlife agencies and DOD, has had 
significant accomplishments related to the Sikes Act. In Fiscal Year 
2001, the Fish and Wildlife Service expended in excess of $920,000 of 
appropriated funds and staff hours equal to over 34 full-time employees 
for work done pursuant to the Sikes Act. In Fiscal Year 2002, the Fish 
and Wildlife Service expended over $897,000 of appropriated funds and 
staff hours equal to approximately 30 full-time employees for this 
work. The Fish and Wildlife Service's expenditures involved the 
following activities:
    <bullet> Lreviewing and processing INRMPs;
    <bullet> LEndangered Species Act consultation;
    <bullet> Lconducting site reviews and interagency meetings;
    <bullet> Lproviding technical assistance in planning and developing 
INRMPs;
    <bullet> Lproviding field technical assistance, such as fish and 
wildlife surveys and habitat assessments and restoration; and
    <bullet> Lconducting INRMP implementation actions, such as 
population assessment and evaluation, fish stocking, exotic species 
control, and hunting, fishing, and environmental education programs.
    Most often, the Fish and Wildlife Service becomes involved in the 
INRMP process when a draft INRMP is sent to a field office by a 
military installation for review and comment. When a Fish and Wildlife 
Service field office receives an INRMP, it conducts a complete 
programmatic review of the plan within the Fish and Wildlife Service, 
including review by the Endangered Species, Fish and Wildlife 
Management Assistance, National Wildlife Refuges, and Migratory Birds 
programs. This ensures that the breadth of expertise in various 
programs is brought to bear on these plans and ensures compliance with 
the environmental laws administered by the Fish and Wildlife Service.
    After comments are exchanged, revisions made, and agreement reached 
(specifically in regards to the conservation, protection, and 
management of fish and wildlife resources) between a Fish and Wildlife 
Service field office and a military installation, the military 
installation sends a final draft INRMP to the Fish and Wildlife 
Service's Regional Office. The Regional Sikes Act Coordinator is 
responsible for ensuring timely review, coordination, and processing of 
the final draft INRMP and facilitating Regional Director approval of 
the plan. The Fish and Wildlife Service's agreement to an INRMP is 
signified by the approval of the Regional Director.
    The Fish and Wildlife Service and State cooperation and 
coordination on INRMPs are a continuing process beyond the agency 
approval of a plan. INRMPs are reviewed by military installations on a 
yearly basis and our feedback is requested during the review concerning 
the implementation and effectiveness of the plans. Every 5 years INRMPs 
go through a formal review and approval process that involves a public 
comment period and coordination again with the Fish and Wildlife 
Service and State fish and wildlife agencies.
The benefits of INRMPs to fish and wildlife resources
    The Department of Defense manages approximately 25 million acres of 
land on its major military installations in the United States, of which 
19 million acres are dedicated to Fish and Wildlife Conservation. 
Limits on access due to security and safety concerns have sheltered 
many of these lands from development and other adverse impacts. 
Military lands contain rare and unique plant and animal species and 
native habitats such as old-growth forests, tall-grass prairies, and 
vernal pool wetlands. Over 300 threatened and endangered species live 
on DOD-managed lands. These lands and the species they support are an 
essential component of our Nation's biodiversity. Recognizing this, the 
Fish and Wildlife Service has worked extensively with the State fish 
and wildlife agencies and military installations to develop plans that 
will effectively conserve fish and wildlife resources and promote 
compatible outdoor recreation, while enhancing military preparedness 
through improved stewardship of the land.
    The technical expertise of Fish and Wildlife Service employees 
combined with State fish and wildlife agencies' expertise and 
responsibilities for resident species and DOD's knowledge of training 
requirements and their installation's natural resources, allows for an 
unprecedented opportunity for cooperative management of substantial 
natural resources. Some examples of how we have seized upon this 
opportunity follow below:
    In August of 2002, the Fish and Wildlife Service, three naval 
installations (Naval Air Station, Kingsville, Naval Station Ingleside, 
and Naval Air Station Corpus Christi) and the Texas Parks and Wildlife 
Department signed a charter for the ``South Texas Natural Resources 
Partnering Team.'' The vision of this partnering team is to work 
cooperatively to achieve environmental compliance and maximize natural 
resources stewardship in South Texas, while meeting national defense 
requirements. The team has many goals including fostering open 
communication, promoting habitat stewardship, coordinating natural 
resource protection into active programs, and integrating natural 
resource protection in other programs.
    The Fish and Wildlife Service has enjoyed a long, productive 
relationship with Fort Carson, Colorado. Over approximately 50 years, 
Fort Carson and the Fish and Wildlife Service have partnered to provide 
sport fishing opportunities, native plant and wildlife research, and 
native species restoration programs. We have formed a spirit of 
cooperation and friendship that has assisted both parties in overcoming 
management barriers. By addressing the entire scope of problems faced 
by native species, the Fort Carson environmental program is a model for 
progressive natural resource planning. As part of their habitat 
conservation efforts, Fort Carson provides full funding for 10 Fish and 
Wildlife Service field staff positions. This partnership between Fort 
Carson and the Fish and Wildlife Service provides professional habitat 
monitoring, INRMP development and implementation, and National 
Environmental Policy Act review. By funding Fish and Wildlife Service 
positions dedicated to working on Ft. Carson's environmental management 
issues, the base has significantly reduced regulatory conflicts and 
increased the value of its natural resources, while ensuring its 
mission is not compromised.
The Fish and Wildlife Service and DOD working relationships
    Coordination on implementing the Sikes Act has led to productive 
relationships between the Fish and Wildlife Service, State fish and 
wildlife agencies and DOD. Following the enactment of the 1997 
amendments, the Fish and Wildlife Service and State fish and wildlife 
agencies exerted tremendous effort to help the DOD meet the November 
2001 statutory deadline for the completion of INRMPs for all relevant 
military installations (approximately 380 installations across the 
Nation). A majority of these INRMPs were completed and approved by the 
deadline.
    As part of the process of attempting to meet the statutory 
deadline, in 1999, the Fish and Wildlife Service signed a Memorandum of 
Understanding with DOD for the ``Ecosystem-Based Management of Fish, 
Wildlife and Plant Resources on Military Lands.'' It established a 
policy of cooperation and coordination between the DOD and the Fish and 
Wildlife Service for the effective and efficient management of fish, 
wildlife, and plant resources on military lands. The MOU defined what 
INRMPs must address, identified areas in which the Fish and Wildlife 
Service has expertise and may be of assistance, and identified the 
respective responsibilities of DOD and Fish and Wildlife Service.
    In Fiscal Year 2001, 32 military installations provided over $4 
million to the Fish and Wildlife Service and $402,000 to the State fish 
and wildlife agencies to support natural resource conservation work on 
military installations. In Fiscal Year 2002, 21 military installations 
provided $2.2 million to the Fish and Wildlife Service and $143,000 to 
the State fish and wildlife agencies. Of the funds provided to the Fish 
and Wildlife Service in both fiscal years 2001 and 2002, over 60% was 
provided to support 12-14 full time Fish and Wildlife Service field 
employees working exclusively on Fort Carson and Pueblo Depot 
installations in Colorado.
    The Fish and Wildlife Service continues to be actively engaged in 
coordination with the military and State fish and wildlife agencies 
through the Sikes Act Core Group. The Core Group includes 
representatives from the DOD and each of the military services, the 
International Association of Fish and Wildlife Agencies, and the Fish 
and Wildlife Service's National Sikes Act Coordinator. The interagency 
Core Group is continuing work on a number of efforts to improve 
coordination and cooperation among our agencies. For example, in Fiscal 
Year 2002, the Core Group assisted the DOD in developing revised Sikes 
Act guidance for the military services. The Fish and Wildlife Service 
is in the process of finalizing similar national guidance to provide 
consistency between agencies in interpretation, and direction for 
implementation, of Sikes Act requirements. Our revised guidance will 
emphasize the importance of internal and external coordination, 
conducted in an expeditious manner, to effectively conserve, protect, 
and manage fish and wildlife resources on military lands.
Additional Opportunities under the Sikes Act
    The Fish and Wildlife Service believes that the Sikes Act has 
provided an important process for affording meaningful conservation 
benefits to fish and wildlife on military lands. We offer the following 
thoughts as we look forward to reauthorization.
    The Fish and Wildlife Service would like to be more involved in the 
development and revision of INRMPs, and in the evaluation of the 
effectiveness and implementation of INRMPs. We are working 
collaboratively with DOD to help address this. Revised DOD Sikes Act 
guidance to the military services, issued October 2002, states that 
military installations will inform the Fish and Wildlife Service and 
State fish and wildlife agencies of their intent to prepare or revise 
an INRMP 30 days in advance, and will request our participation. The 
Fish and Wildlife Service field offices will participate in the 
development of INRMPs as much as feasible. The Fish and Wildlife 
Service wants to work more closely with the State fish and wildlife 
agencies and to facilitate three-way dialog between military 
installations, State fish and wildlife agencies, and the Fish and 
Wildlife Service.
    We would also like to perform more thorough reviews of INRMPs, 
leading to plans that are more robust in terms of providing benefits to 
fish and wildlife resources, while not compromising the military 
mission.
    Approval of INRMPs is important because it provides DOD with a 
heightened level of certainty that they are meeting their environmental 
responsibilities while continuing to provide military readiness 
training. To aid in the efficient and timely completion and approval of 
management plans, and to improve the value of those plans to fish and 
wildlife conservation within constrained resources, the Fish and 
Wildlife Service and DOD have developed ways to facilitate funding 
transfers on a reimbursable basis to hire staff whose only duties are 
related to Sikes Act and other coordination issues with DOD. We would 
like to ensure that our role in developing and reviewing INRMPs is 
meaningful and efficient.
    Finally, we note that the Administration's National Defense 
Authorization Act for Fiscal Year 2004 includes DOD's Readiness and 
Range Preservation Initiative (Section 316). This initiative includes a 
provision which states that INRMPs developed pursuant to the Sikes Act 
and that address threatened and endangered species on a military 
installation, will provide the special management considerations or 
protection required under the Endangered Species Act and will obviate 
need for designation of critical habitat on military lands for which 
such plans have been completed. The Fish and Wildlife Service notes 
that INRMPs may serve as an effective vehicle through which the 
military services can comprehensively and pro-actively plan for the 
conservation of fish and wildlife species and their habitats.
Conclusion
    The Fish and Wildlife Service looks forward to continued 
participation and cooperation with the DOD and State fish and wildlife 
agencies in maximizing fish and wildlife management potential on 
military lands, and integrating this potential into broader resource 
protection, restoration, and management efforts. We will continue our 
efforts with the military to develop effective Integrated Natural 
Resource Management Plans that are designed to conserve natural 
resources and promote public access and recreation, while enhancing 
military preparedness through improved stewardship and sustainability 
of DOD lands.
    Mr. Chairman, we appreciate the opportunity to share with the 
Subcommittee this information on the significant opportunities provided 
under the authority of the Sikes Act. Again, we appreciate and support 
your efforts to reauthorize the Sikes Act, and look forward to working 
with you and our partners to identify and enact any amendments that 
would improve this important law. I will be pleased to answer any 
questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Tuggle.
    Mr. John Baughman, sir.

   STATEMENT OF JOHN G. BAUGHMAN, EXECUTIVE VICE PRESIDENT, 
    INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Baughman. Thank you. Mr. Chairman, members of the 
Committee, I am John Baughman, Executive Vice President of the 
International Association of Fish and Wildlife Agencies. As you 
know, all 50 of your State agencies are members of our 
association, along with Guam.
    I am here today to share with you the strong support of our 
association for H.R. 1496, Reauthorization of the Sikes Act, as 
it applies to military installations.
    The 1997 amendments to the Sikes Act, which provide for 
enhanced management of fish, wildlife and recreational 
resources on military installations remain of great 
significance to the State fish and wildlife agencies. Although 
the opportunity for management of fish and wildlife resources 
on military installations has always existed, the 1997 Sikes 
Act Improvement Act amendments mandate that these resources be 
managed for the benefit of the public, the natural resources of 
the installation, and in cooperation with those responsible for 
management of surrounding land areas.
    The principal means of doing this is by the development and 
implementation of integrated natural resource management plans 
through cooperation of the Department of Defense installation, 
the U.S. Fish and Wildlife Service and the respective State 
fish and wildlife agency.
    The many exemplary installations on which integrated 
management plans embody the congressional intent and direction 
in the Sikes Act are most often the result of early and 
excellent cooperation between the three statutory parties, 
adequate funding to the respective agencies, and the 
availability of professional staff in all of the agencies with 
the time and dedication to devote to fulfilling the integrated 
management plan's objectives.
    I can firmly assure you of the commitment of the State fish 
and wildlife agencies in cooperating with the Department of 
Defense and with the Fish and Wildlife Service to advance fish 
and wildlife and habitat conservation on military 
installations.
    There are three areas where we suggest improvements can be 
applied to the Sikes Act on the ground, none of which require 
statutory amendments in our opinion. First, the cooperation and 
consultation among the three statutory partners needs to begin 
at the earliest stages of conception and design of the 
integrated management plan for the individual installations as 
Congress originally intended. Second, the Department of Defense 
needs to request and Congress needs to appropriate the 
necessary funds to successfully implement management plans. And 
third, the Department of Defense needs to ensure that they 
retain the professional civilian staff necessary to 
successfully design, develop and implement the management 
plans.
    It seems apparent to us that where mutual agreement on 
integrated management plans has not been achieved, it is most 
often because the management plan has been more or less 
unilaterally prepared by the installation or a contractor, then 
presented to the Fish and Wildlife Service and State fish and 
wildlife agencies for concurrence. The two principal statutory 
tenets of the integrated management plans require that they be 
prepared, ``in cooperation with the Secretary of Interior 
acting through the Director of the Fish and Wildlife Service, 
and with the head of the State fish and wildlife agency for the 
State in which the military installation is located.''
    The law further provides that the resulting management 
plans, ``shall reflect the mutual agreement of the parties 
concerning conservation, protection and management of fish and 
wildlife resources.''
    Obviously, cooperation of the statutory parties at the 
earliest stages of conception and development of the management 
plans is the contemplation of the statute. The Association 
strongly encourages the Department of Defense to continue to 
remind the Armed Services of the need for and value of early 
consultation and cooperation by all three parties. We 
appreciate the revised Sikes Act implementation guidance 
published by Department of Defense last October which makes it 
clear that early consultation is instrumental in achieving 
meaningful and successful integrated management plans.
    The second recommendation of the association is to 
encourage the Department of Defense to request and Congress to 
appropriate additional funds for Sikes Act management plan 
development and implementation. The Association further 
suggests that some of these funds be used by the Department of 
Defense to contract with the State fish and wildlife agency to 
develop the integrated management plan for the installation in 
cooperation with the Fish and Wildlife Service and the base.
    Third, there are continuing concerns regarding the loss of 
civilian professional natural resource positions in favor of 
contracting or outsourcing these functions. We strongly 
encourage the Department of Defense to reexamine the basis for 
outsourcing as opposed to retaining civilian staff in these 
capacities. We believe the functions performed by the 
Department of Defense professional biologists on military 
installations are appropriate Government functions. These are 
long-term programs on public lands, and the fish and wildlife 
resources found on these lands are held in trust by the State 
and Federal Governments for the benefits of the citizens.
    While some labor-type conservation positions can certainly 
be contracted out, we strongly support the retention of 
professionally trained civilian biologists to oversee fish and 
wildlife and natural resource conservation programs on 
installations.
    In summary, the Association strongly supports H.R. 1497 and 
reiterates our commitment to working closely with both the 
Department of Defense and the Service in successful development 
and implementation of meaningful integrated management plans on 
installations. The security of our Nation and its fish and 
wildlife resources both are well served by the application of 
the Sikes Act to military lands.
    Thank you, Mr. Chairman, for the opportunity to share the 
association's perspective, and I would be pleased to answer any 
questions.
    [The prepared statement of Mr. Baughman follows:]

         Statement of John Baughman, Executive Vice Preisdent, 
        International Association of Fish and Wildlife Agencies

    Thank you, Mr. Chairman. I am John Baughman, Executive Vice-
President of the International Association of Fish and Wildlife 
Agencies, and I'm here today to share with you the strong support of 
the Association for H.R. 1497, reauthorization of the Sikes Act as it 
applies to military installations. The Association applauds the 
significant progress for fish and wildlife conservation that has been 
made through the cooperation of the Department of Defense (DoD) 
installations, U.S. Fish and Wildlife Service (USFWS) and State fish 
and wildlife agencies since the passage of the Sikes Act Improvement 
Act in 1997. While improvements can and should be made, and we will 
suggest some areas for attention, I believe we can all be proud of the 
conservation benefits achieved from this often unknown and unheralded 
success story of public lands management on approximately 25 Million 
acres. Our successes have certainly substantiated that not only is 
achievement of the military preparedness mission and sound stewardship 
of the land and its fish and wildlife resources not mutually exclusive, 
they are indeed mutually necessary and beneficial.
    The International Association of Fish and Wildlife Agencies was 
founded in 1902 as a quasi-governmental organization of public agencies 
charged with the protection and management of North America's fish and 
wildlife resources. The Association's governmental members include the 
fish and wildlife agencies of the states, provinces, and Federal 
Governments of the U.S., Canada, and Mexico. All 50 states are members. 
The Association has been a key organization in promoting sound resource 
management and strengthening Federal, state, and private cooperation in 
protecting and managing fish and wildlife and their habitats in the 
public interest.
    The 1997 amendments to the Sikes Act, which provide for enhanced 
management of fish, wildlife and recreational resources on military 
installations, remain of great importance to state fish and wildlife 
agencies. States, as you know, have primary management responsibility 
and authority for fish and wildlife resources found within state 
borders, including on most public lands.
    Although the opportunity for management of fish and wildlife 
resources on military installations has always existed, the 1997 Sikes 
Act Improvement Act amendments mandate that these resources be managed 
for the benefit of the public, the natural resources of the 
installation, and in cooperation with those responsible for management 
of the surrounding land areas. The principal means of doing this is 
through the development and implementation of the Integrated Natural 
Resource Management Plans (INRMPs) through the cooperation of the DoD 
installation, USFWS and respective State fish and wildlife agency. With 
respect to the fish and wildlife conservation provisions of INRMPs, the 
Act compels mutual agreement of the 3 statutory partners. The Sikes Act 
was intended to assure continued and active participation and 
cooperation with state fish and wildlife agencies for all phases of 
fish and wildlife management on military installations, from planning 
and design to implementation and monitoring of the plans.
    The many exemplary installations on which INRMPs embody the 
Congressional intent and direction in the SAIA of 1997 are most often 
the result of early and excellent cooperation between the 3 statutory 
parties, adequate funding to the respective agencies, and the 
availability of professional staff in the 3 agencies with the time and 
dedication to devote to fulfilling the INRMP objectives. While all of 
the 3 statutory partners will acknowledge that some problems and issues 
remain unresolved at some individual installations, I believe that all 
of the partners are committed to finding solutions to those problems. I 
can firmly assure you of the commitment of the State fish and wildlife 
agencies to cooperating with DoD and the USFWS to advance fish, 
wildlife and habitat conservation on military installations.
    There are 3 areas where we suggest improvements can be applied to 
the application of the Sikes Act on the ground, none of which require 
statutory amendments in our opinion. First, the cooperation and 
consultation among the 3 statutory partners needs to began at the 
earliest stages of conception and design of the INRMP for the 
individual installation, as Congress originally intended in the SAIA 
amendments mandating the preparation and implementation of INRMPs. 
Second, DoD needs to request and Congress needs to appropriate the 
necessary funds to successfully implement INRMPs. And third, DoD needs 
to ensure that they retain the professional civilian staff necessary to 
successfully design, develop and implement INRMPs in cooperation with 
the USFWS and State fish and wildlife agencies.
    First, let me compliment and thank DoD for the revisions to their 
Sikes Act Implementation Guidance which was published in October of 
last year. The revisions to this guidance make it clear that early 
consultation between the 3 parties is instrumental in achieving 
meaningful and successful INRMPs.
    Without belaboring the point, it seems apparent to us that where 
mutual agreement on INRMPs has not been achieved, it is most often 
because the INRMP had been prepared essentially by the installation or 
its contractor, and then presented to the USFWS and State fish and 
wildlife agency for concurrence. The 2 principal statutory tenets of 
INRMPs require that they be prepared ``in cooperation'' with the 
Secretary of the Interior, acting through the Director of the USFWS, 
and with the head of each appropriate State fish and wildlife agency 
for the state in which the military installation is located. The law 
further provides that the resulting INRMP ``shall reflect the mutual 
agreement of the parties concerning conservation, protection and 
management of fish and wildlife resources''. Obviously, cooperation of 
the statutory parties, begun at the earliest stages of conception and 
development of the INRMP, is the contemplation of the statute. Such 
cooperation should go far to reconcile potential differences, and 
consensus building and problem solving throughout the process will most 
likely facilitate the ``mutual agreement'' required by the statute. The 
Association strongly encourages DoD to continue to remind the Armed 
Services of the need for and value of early consultation and 
cooperation by all 3 parties.
    I will acknowledge that some of our State fish and wildlife 
agencies have not had the staff or budget to participate as fully in 
the development of INRMPs as the law contemplates. This leads me to the 
second recommendation of the Association which is to encourage DoD to 
request, and Congress to appropriate, additional funds for Sikes Act 
INRMP development and implementation. And, the Association would 
further suggest that some of the these funds should be used by DoD to 
contract with the State fish and wildlife agency to develop the INRMP 
for the installation in cooperation with USFWS and the base. Mutual 
agreement would still be required, of course, and the State fish and 
wildlife agency would have to review the plan through its appropriate 
chain of command, but especially in circumstances where State fish and 
wildlife agency budgets are a limiting factor, this contracting by DoD 
to the state would greatly facilitate arriving at an INRMP that will 
engender mutual agreement.
    Finally, we are aware of continuing concerns regarding the loss of 
civilian professional natural resource positions in favor of 
contracting or out-souring these functions. We strongly encourage DoD 
to re-examine the basis for doing this as opposed to retaining civilian 
staff in these capacities. We believe that the functions performed by 
DoD professional biologists on military installation are appropriate 
governmental functions. These are public lands, and the fish and 
wildlife resources found on them are held in trust by the state and 
Federal Governments for the benefit of all citizens. While some 
``laborer'' type skills in carrying out conservation programs can 
certainly be contracted out, we strongly support the retention of 
professionally trained civilian biologists in permanent career 
positions to oversee the fish and wildlife and natural resource 
conservation programs on installations. We see no difference between 
the need to retain these functions under permanent professional staff 
on a DoD installation and retaining these functions under similar type 
staff on a National Wildlife Refuge.
    In summary, the Association strongly supports H.R. 1497 and 
reiterates our commitment to working closely with both DoD and USFWS in 
successful development and implementation of meaningful INRMPs on 
installations. The security of our Nation and its fish and wildlife 
resources both are well-served by the application of the Sikes Act to 
military installations.
    Thank you, Mr. Chairman, for the opportunity to share the 
Association perspectives with you, and I would be pleased to answer any 
questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Baughman.
    What I would like to do is try to clear up some ambiguity 
that I have regarding the integrated natural resource 
management plans and a number of other statutes that are 
probably much older. For example, you have the Marine Mammal 
Protection Act which impacts a number of military 
installations, and you have the Endangered Species Act which 
impacts those installations as well, and you have this 
integrated natural resource management plan which is to create 
a management plan for the natural resources and fish and 
wildlife and also for endangered species.
    I think it is a job for us to try to understand which is 
the best route to take in order to protect wildlife, natural 
resource areas, and endangered species. One of the best ways, 
in my mind, to protect endangered species is to create habitat 
for those species, but habitat in a way that is somewhat 
different from the statute I guess because a statute deals with 
an individual species and an individual critical habitat for 
those species. I think if we get away from the idea of 
individual species and individual habitat for that species, and 
just look at a broad range of areas, we would be doing fish and 
wildlife a favor.
    So I guess the question is, when you develop these 
integrated natural resource management plans, and I cannot get 
the acronym, INRMP, I guess that is what it is, INRMP? It 
sounds like Enron. INRMPs or something, I'll say integrated 
natural resource management plan.
    When you are developing these management plans with DOD, 
with State fish and game, with Interior, how well does ESA and 
MMPA complement or complicate these management plans?
    Mr. DuBois. Mr. Chairman, let me go first on that if I 
might. You have accurately outlined some of the relationships 
between, and specifically between the Endangered Species Act 
and the Sikes Act, and it is important I think to understand 
why we, in the Department of Defense, believe, and I believe 
the Department of Interior concurs, why we believe that the 
integrated natural resource management plans, as mandated by 
Congress on the Department for the purposes of managing habitat 
on our installations, why is it better?
    Yesterday I was discussing this with Jim Connaughton, the 
Chairman of the Council of Environmental Quality, and we were 
looking at it not just as the Sikes Act, per se, but in a more 
general way, how best to manage habitat and manage wildlife 
resources. Jim was very good, I think, in saying that it is 
critical--and this is where the key differences occur between 
Endangered Species Act and the Sikes Act--it is critical to 
deal with these issues in an integrated, in a multi-species 
approach. The Endangered Species Act looks at species, by 
species, by species. Critical habitat for that particular 
species, critical habitat for that particular species. On the 
other hand, the Sikes Act--and I would submit is a better way 
to manage--it looks at ecosystems. It looks at this issue 
holistically, and it looks at both ecosystems and land 
planning.
    Now, we could take the Sikes Act, take it out of the 
context of the military, and one could conclude that is a 
fairly intelligent way to do it whether it was a military 
installation or a wildlife refuge, but I would submit that the 
long-term planning, as I think has been outlined here by Dr. 
Tuggle, the proactive aspect of Sikes vice the reactive aspect 
of the Endangered Species Act, points out a very useful 
difference, if you will, useful to us, useful to the Fish and 
Wildlife Service, useful for the State and local regulators 
with whom, as has been testified, we must coordinate. Mr. 
Baughman's comment that in the past some installations did not 
do the coordination that they should. I appreciate the fact 
that Mr. Baughman did refer to my October 2002 memo, where I 
made it absolutely clear or as clear as I could possibly make 
it, to the service secretaries that an approach which included 
the coordination with other stakeholders was the only way to 
go.
    Mr. Gilchrest. Thank you, Mr. DuBois.
    Dr. Tuggle, could you comment on how the integrated natural 
resource plans, these managements complement or complicate ESA 
or Marine Mammal Protection Act?
    Mr. Tuggle. Mr. Chairman, there is no question that the 
stewardship responsibilities that the Department of Defense 
have often times run afoul or run in conflict to some of the 
other land management activities that we would like to put in 
place in terms of trying to preserve our natural resources.
    I think to echo some of the things that Mr. DuBois has 
said, we have approached these plans from the standpoint of 
looking at it as an opportunity to look at the ecosystem and 
try to manage the ecosystem from the standpoint of what the 
species actually require. The species by species management of 
these kinds of properties is extremely difficult because in 
some instances you may be in a situation where you are managing 
against one at the expense of the other.
    The integrated natural resource management plans provide a 
fair amount of certainty to the DOD installations primarily 
because they have the opportunity to examine what their 
military preparedness needs are, and at the same time look long 
term in terms of what they may be trying to manage for 
particular ecosystem management principles.
    We support these plans, I think, primarily because it gives 
the service an opportunity to look at these habitats from an 
oversight standpoint and a consultation standpoint with DOD, 
and help them make sure that the management principles that 
they are applying on their installations don't compromise the 
main mission for the military, but at the same time, provide 
the augmentation that ensure that these resources will have 
habitats into the coming generations.
    Mr. Gilchrest. Thank you very much.
    Mr. Baughman, would you care to comment?
    Mr. Baughman. Thank you, Mr. Chairman. I think all of us 
would be derelict if we didn't look for some opportunities 
between the Endangered Species Act, the Marine Mammals Act, and 
the Sikes Act, to come up with some efficiencies and better 
ways of doing business, and certainly the concept in the Sikes 
Act offers that avenue to look at the habitats and the species 
as a community. Those are things we should seize upon, look at 
ways to be more efficient to streamline the Act.
    As important as looking at the relationship to the 
Endangered Species Act, which may actually require some 
additional policy work to get things working smoothly, even 
more important I think are some of those species at risk that 
are not on that list yet that could be, and to come up with 
ways that the Department of Defense and the bases receive 
credit and recognition and some assurances that what they are 
doing will keep them out of that Endangered Species arena, and 
we have worked with the States and with the service on some 
methods for developing what we are calling State Conversation 
Agreements, and I think the technical part of preparing these 
plans fits very nicely with what we anticipated in other areas 
and States to protect some of these key habitats and the 
assemblages of species in there. So I think we have a 
tremendous opportunity, and actually some of the work done on 
these bases can be a model for some of the things we can do 
with endangered species, and preventing endangered species 
elsewhere in the country.
    Mr. Gilchrest. Thank you very much, Mr. Baughman. Maybe we 
can replicate that in other areas, and hopefully not get to the 
point where the sole open space in any community happens to be 
the military facility. So these integrated management plans 
might be replicated in other places, so there is more than just 
the military base for critical habitat that is left.
    I will yield now to the gentleman from New Jersey, Mr. 
Pallone, for any questions he may have.
    Mr. Pallone. Thank you, Mr. Chairman.
    My questions are to Mr. DuBois, and I have a few of them, 
so if you could try to answer quickly. I know I shouldn't say 
that, but I am going to because the time is limited.
    As you know, a DOD memorandum was leaked in the beginning 
of the year that laid out a long-term strategy of which the 
Readiness and Range Preservation Initiative is an integral 
part. This year exemptions for the military to five 
environmental laws including RCRA, CERCLA, Marine Mammal 
Protection Act, ESA and the Clean Water Act have been 
requested, and one of these exemptions alluded to for the 
future would be a national security exemption for the Sikes 
Act.
    My first question is, is the effort by the DOD to 
substitute INRMPs for critical habitat designation simply the 
precursor to then seeking exemption from the Sikes Act all 
together?
    Mr. DuBois. Mr. Pallone, I just wanted to clarify. We are 
not seeking any exemptions under the Clean Water Act. We are 
seeking a clarification to the Clear Air Act with respect to 
the time necessary to achieve air quality within certain areas.
    Mr. Pallone. OK, but what about Sikes?
    Mr. DuBois. We are not addressing the Sikes Act in our 
Range and Readiness Preservation Initiative. We did not request 
a national security exemption under the Sikes. We did, in 
response to last year's questions to me from the Congress with 
respect to the Marine Mammal Protection Act, which is one of 
the statutes that does not currently have a national security 
exemption or waiver. We have in this year's submission to 
Congress included language which would afford a national 
security exemption under the Marine Mammal Protection Act, in 
response to questions--
    Mr. Pallone. So it is definitely not Sikes, even though 
that has been alluded to?
    Mr. DuBois. Correct. It is not Sikes.
    Mr. Pallone. We can rest assured.
    Mr. DuBois. Yes. And point of fact, as I indicated, we 
would like to see the Sikes Act be the operative act, as 
Congress mandated originally, with respect to habitat 
designation and land use management on installations and not 
the Endangered Species Act.
    Mr. Pallone. Let me ask you in that regard. I understand 
what you are saying, but I guess I have two questions. One is, 
what is the legal basis at this point for using INRMPs instead 
of critical habitat or ESA designation? And then I guess 
secondarily, why not do both?
    Mr. DuBois. Well, we asked a similar question because when 
we were honoring our obligation under the Sikes Act, the 
mandate of Congress to execute those integrated natural 
resource management plans on installations in coordination with 
the Fish and Wildlife Service, we were under the impression by 
virtue of the legislative history here, that the INRMPs under 
the Sikes Act would suffice with respect to habitat 
designation. Now, according--
    Mr. Pallone. Wasn't there a court opinion recently that 
said the opposite?
    Mr. DuBois. The court case quite correctly--actually, I 
think it pertained to the Forest Service, but we see it as 
applicable to our situation also--where a Federal judge held 
that no matter how good an integrated natural resource 
management plan, no matter how well received, designed, 
approved by Fish and Wildlife, concurred with the State 
regulators, no INRMPs could ever substitute for critical 
habitat designation.
    Mr. Pallone. So that is the law. Are you still--you are 
obviously--
    Mr. DuBois. That is why we have asked Congress to clarify.
    Mr. Pallone. In other words, you want us to change the law, 
I understand.
    Mr. DuBois. That is correct.
    Mr. Pallone. But right now you do both essentially. In 
other words, right now you feel that you are doing the INRMPs 
because you want to but you still--
    Mr. DuBois. Well, Congress mandated that we do the INRMPs.
    Mr. Pallone. But in other words, right now you are doing 
both essentially?
    Mr. DuBois. We are doing the INRMPs, as mandated by 
Congress to the military, and there are situations where we 
could get sued or--excuse me--the Fish and Wildlife Service 
gets sued for having approved or concurred in our INRMPs, and 
they are then stopped or enjoined from, as we both are, from 
moving forward with the implementation of that INRMPs because 
the Endangered Species, they say, the third party--
    Mr. Pallone. I don't mean to keep interrupting. I am just 
running out of time.
    So what you are saying, if I understand it, is where the 
ESA is applicable and the critical habitat designations are 
being made, then you don't do the INRMPs; where that is not the 
case, you do the INRMPs?
    Mr. DuBois. We do the INRMPs, and we were suggesting that 
the INRMPs are a better way to designate habitat and manage it, 
not the ESA.
    Mr. Pallone. What you would like to do is get rid of the 
critical habitat designation and just do the INRMPs.
    Mr. DuBois. We would like Congress to clarify that INRMPs 
are the best way for the military to pursue habitat management 
and designation, not ESA.
    Mr. Pallone. And you would not advocate continuing with the 
status quo where you have to do the critical habitat where 
applicable and you do the INRMPs where it isn't?
    Mr. DuBois. Our view would be that the INRMPs is better to 
manage and designate.
    Mr. Pallone. For all situations, for all those situations?
    Mr. DuBois. For the situations--remembering too that--
    Mr. Pallone. Just tell me why again. What is the problem in 
doing both? What is the problem of the status quo in the sense 
that you would have to do the critical habitat where it is 
applicable and doing the INRMPs where it isn't? Why do you see 
that as a problem?
    Mr. DuBois. Well, as a practical matter, if we have 
designated habitat under the Sikes Act and are accomplishing an 
objective that the ESA would like us to accomplish, but doing 
it better, as we discussed, multi-species not individual 
species, and--I will be very blunt about this--Congress needs 
to clarify the law by virtue of the fact that we are now being 
restrained by certain court actions brought by third parties 
with respect to the utilization of lands designated by Congress 
for military training, such as the Camp Pendleton situation. 
The Fish and Wildlife Service and the Marines had agreed upon 
an INRMPs at Pendleton. They were sued. Fish and Wildlife 
Service was sued. That was insufficient. The Endangered Species 
Act, where it to be allowed--and I will defer to Dr. Tuggle 
here--but 57 percent of Camp Pendleton could arguably, under 
the Endangered Species Act, be totally restricted from 
training. The integrated natural resource management plan would 
say that there can be a balance with respect to the management 
and use of that land, not totally restricted as would be the 
case under Endangered Species. But I want to defer to Dr. 
Tuggle in this regard.
    Mr. Tuggle. I am not sure that I want to be referred to. I 
think our position primarily is one that we look for the 
conservation benefits. The integrated natural resource 
management plans give us a lot more flexibility in terms of how 
we deal with these species on an ecosystem basis. The plans 
that we have that are in place that truly do address our 
special management considerations and protections, we feel very 
strongly would substitute for critical habitat designation.
    Mr. Pallone. Thank you.
    Mr. Gilchrest. Thank you, Mr. Pallone. And we can have a 
second round of questions if there are any more that you might 
have.
    Mr. Cunningham?
    Mr. Cunningham. Mr. Chairman, I am a guest, and I wouldn't 
take my position before the gentlelady from Guam, and I would 
yield to her. And then as a guest, I would like to ask some 
questions, but I would yield to the gentlelady if that is all 
right with the Chairman.
    Mr. Gilchrest. The gentlelady from Guam is recognized.
    Ms. Bordallo. Thank you very much, Congressman.
    I have a couple of questions for Mr. DuBois. Is that the 
way to pronounce your name?
    Mr. DuBois. Yes, ma'am.
    Ms. Bordallo. In follow up to Mr. Pallone's questions, in 
light of perhaps DOD's pursuit in the future to provide for a 
national security exemption in the Sikes Act. If the Department 
is concerned with critical habitat designation, why hasn't the 
Department utilized the national security exemptions already 
provided for in the ESA and the Sikes Act?
    Mr. DuBois. This is a question, of course, that we have 
been asked many times. One must remember that the Presidential 
waiver or a secretarial national security waiver is to be used 
in extremis. In other words, when the paramount interests of 
the United States, as the lawyers will tell you, is at stake, 
and one must remember that we cannot come to the President or 
the Secretary of Defense on a daily basis asking for and 
exemption for a training exercise at Camp Swampy tomorrow 
afternoon.
    One of the other problems that we face--and I don't mean to 
be flippant about this--one of the other problems that we face 
is that asking for an exemption is asking for relief almost 
after the fact. If we are sending, as we are today, our sons 
and daughters into harm's way in Iraq, I would submit that 
asking for an exemption for training them, it is a bit late. 
They are already on their way. We need to be able to train them 
every day, nearly 365 days out of the year, in anticipation 
that some day, unfortunately, the President will have to commit 
troops into combat. Again, you have on either end of the 
spectrum--on the one end you could say, well, use your national 
security exemptions for all your training exercise. Well, that 
would mean every day going into the Secretary and into the Oval 
Office, where it is a Presidential exemption requirement, 
asking for a training exemption or waiver.
    On the other hand, if we were to ask for a very broad 
waiver, all training exercises at Fort Irwin or Anderson Air 
Force Base in Guam for an entire year, the breadth of that kind 
of request would inevitably foster lawsuits trying to enjoin us 
from doing so. So it is a useful tool but in a very narrow 
sense, and we do not believe its utility works in the situation 
that we are facing today.
    Ms. Bordallo. Perhaps there wouldn't be any need for this 
particular exemption.
    Mr. DuBois. The only national security exemption that we 
are asking for this year, and it was quite frankly in response 
to a request from I believe the Senate Armed Services 
Committee, was to include it where it didn't exist in the 
Marine Mammal Protection Act. So at their request, we included 
it, but as I indicated, I don't think that it has a high degree 
of utility with respect to the issues that we are faced with 
every day.
    Ms. Bordallo. The second question I have, Mr. Chairman, is 
also for Mr. DuBois.
    You mentioned in your opening statement the RRPI request of 
the Department of Defense to amend the ESA to, quote, as you 
said, ``prevent duplicating conservation management work,'' and 
you further stated that INRMPs would serve as adequate 
substitutes for ESA critical habitat designation under 
appropriate circumstances.
    Where and when might there be inappropriate circumstances?
    Mr. DuBois. Not being clairvoyant I don't know that there 
are--most of the circumstances that I can think of that I have 
been exposed to--and I have been exposed to and I visited 92 or 
93 military installations and training ranges in this 
responsibility that I now have. I believe that INRMPs are going 
to be applicable in almost all circumstances. I would submit, 
however--and this may be in partial answer to Mr. Pallone's 
question--there may be situations where the Endangered Species 
Act is more appropriate, but we think the primary 
responsibility for critical habitat designation and management 
ought to be mandated to the Department from the Sikes Act and 
not the ESA. I suspect however that in the consultation, which 
is required under Sikes, with Fish and Wildlife Service, with 
State regulators, there might be circumstances where they say 
aspects of the Endangered Species Act need to be incorporated 
in the INRMPs program that we would be designing, and that I 
would not reject.
    Ms. Bordallo. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you.
    The gentleman from California?
    Mr. Cunningham. Thank you, Mr. Chairman, and thank the 
Committee for allowing me to even be here.
    Years ago we established a program with Lew Deal. It was 
based on Lew Deal's entire program. I didn't invent it. I 
wasn't the originator of it. It was Colonel Deal's. But what it 
did, it enabled disabled sportsmen to participate in 
recreational activities on military bases. I think it has been 
marvelous. I have witnessed individuals with disabilities and 
seen firsthand the things that they can do, like I mentioned 
going down on a dock with a wheelchair and having a rail there 
so you could fish and not be afraid that you were going to fall 
in.
    But one of the concerns is that many of the base commanders 
aren't aware of the program, and I would say, Mr. DuBois, that 
if you could, in a directive or something, push this for our 
disabled sportsmen, both military and civilian, I think it 
would help the issue. Would you be willing to do that?
    Mr. DuBois. Of course, Mr. Cunningham. In fact, last 
summer, in August of 2002, in response in no small measure to 
letters that I had received from paralyzed veterans and others 
who wanted to use, where appropriate, our lands and piers and 
so forth, I issued a policy memo to the service secretaries, to 
the military departments, and I didn't want to tell them, as 
they say in the old country, how to suck eggs, but I said to 
them, ``Look, you have the encouragement of the Secretary of 
Defense to implement the provisions of the Sikes Act,'' and I 
enumerated them Section 103, ``that is to say, provide persons 
with disabilities access to the same outdoor recreation 
opportunities, including fishing, hunting, trapping, wildlife 
viewing, boating and camping, as it is afforded to the general 
public.''
    Now, we have worked closely with these organizations, the 
PVA and others, as I indicated, to accept donations of various 
items of equipment the would enable disabled folks to use these 
installations, and just as an example, Camp Lejeune, Naval 
Weapon Station Yorktown, Little Rock Air Force Base Arkansas, 
Naval Air Station, Meridian, Mississippi, all have accepted 
donations. There are plans at Fort Chaffee, Fort Benning, Fort 
Bragg, MacDill. This is a program that is not only 
enthusiastically, as you have indicated, sir, enthusiastically 
received by sportsmen, but there are also various Members of 
Congress, in particular yourself, who have reminded us and help 
us in this regard, and I do thank you.
    Mr. Cunningham. Thank you, Mr. Secretary, and I would say I 
went through flight training at Meridian. The only thing open 
on Friday night is Sears.
    [Laughter.]
    Mr. Cunningham. So you have to find something to do there.
    My next heartburn I think is I also sit on the Defense 
Appropriations Committee and every single one of the four stars 
have testified that training has been inhibited on their bases, 
both in the air, the land and the sea, to extreme measures in 
some case. Pendleton was, for example, mentioned. Right now if 
you want to use a sea invasion, and coming ashore, they 
actually have to climb out of their landing craft, after they 
hit the beach, they have to walk through a very narrow path to 
go over onto the other side where they can train. They can't 
even dig foxholes. You see on TV these kids--I mean there is an 
art to it, especially in different kinds of terrain. They can't 
even dig foxholes, and in some areas the troops are literally 
carrying cardboard boxes to simulate tanks. And this type of 
training is why I am alive today. I flew in two war zones, and 
I am alive today, even coming down in a parachute, the training 
of how to land in the water, and they didn't want us to use 
dye. I wanted to use shark repellant myself coming down. Those 
kind of things keep our kids alive, and I think there is a 
strange dichotomy in Members of the Congress, and quite often 
you will find members, because of their districts or whatever 
it is, have a very low rating on supportive defense, but a very 
high rating on environmental issues which often are in 
conflict.
    I love to hunt and fish, and most of the game wardens I 
grew up with in Missouri were outdoorsmen and fishermen, but it 
seems to me that many of them have been replaced with young 
kids that come out of our colleges and universities who have 
more of an environmental non-use, anti-hunting, than people 
like Mr. Sikes, that love the outdoors, and I think there is a 
conflict there, and that is why I support having a waiver for 
military training because I believe it keeps our kids alive.
    The Endangered Species Act in California has stopped us 
from doing a lot of things. In some areas that is good, but I 
can name for you 100 different things that have hurt people 
that manage the land better than anybody else, and they are our 
ranchers, our farmers and our military. They can't, in 
Pendleton, the only are we really have desert tortoise is where 
we have been training for the last 80 years, in Pendleton, and 
the tortoise love it there. They survive there. They have been 
there in all of this training, with tanks and things running 
around, for 80 years, but yet they want to stop the training in 
a lot of these areas, and it is a strange dichotomy as far as 
wanting to train our kids.
    I would read to you here. It said, ``INRMPs must be 
prepared in cooperation with FWS,'' and then up here it says in 
the testimony, ``Critical habitat designation typically 
duplicates the protections already provided in jeopardy, and 
FWS has been inundated with citizen lawsuits challenging its 
failure to designate critical habitat.'' That is what I am 
talking about. Even though we meet the requirements, the 
extreme environmental groups still come in with lawsuits which 
inhibits our training.
    Mr. DuBois. Yes, Mr. Cunningham. And this refers I think in 
some measure to Chairman Gilchrest's comment about, are we in 
conflict or not? There is a conflict. Now, no one in the 
Defense Department, certainly not myself nor Secretary 
Rumsfeld, has suggested that we are trying to exempt ourselves 
from the activities that normally take place with respect to 
the environmental statutes of this country. We are carefully, 
narrowly crafting clarifications that we hope Congress will 
adopt that pertain solely to operational ranges and training 
and readiness activities.
    Now, you and Chairman Gilchrest and I share something. We 
were all soldiers once and young, and we all trained with live-
fire ammunition, we all trained before we went into combat, all 
three of us in Vietnam, and I suspect that in some way, as you 
have indicated, the three of us are sitting here today because 
of that effective live-fire training. No greater obligation 
does the Secretary of Defense have than to provide that to the 
young people in uniform today.
    Camp Pendleton, as you pointed out, 17 mile beach, less 
than 1,500 meters today are unrestricted for training. The 
artificiality that now takes place at places like Camp 
Pendleton, coming ashore as a combat unit to effectively storm 
an area inland, they have to stop, either walk down a path with 
like police ribbons on either side of it, then start their 
combat training again, stop, get in a truck, go on a road, get 
out. This kind of artificiality is clearly not good. What is 
the level of not good, I can't tell you.
    Let us be perfectly clear. Our troops in Iraq have 
demonstrated absolute superb performance. The question is not 
whether those units have a high level of readiness by virtue of 
the training they received here in the United States, but 
whether or not the training lands that have been set aside by 
Congress for this purpose can continue to provide a high degree 
of fidelity where we can continue to use live ammunition. This 
is what we are really faced with today.
    Mr. Tuggle. Mr. Cunningham, may I add something to this?
    Mr. Cunningham. Yes.
    Mr. Tuggle. I think that we continue to talk about 
Pendleton as if it is the epitome of this operation not 
functioning properly, and I--
    Mr. Cunningham. I can talk to you about Mirimar also.
    Mr. Tuggle. And I would not disagree that we have our 
issues out there, and most of them are in California. But I 
would also offer that we have been working diligently to try to 
work out these problems with the military. The opportunity to 
talk to them early in the process, to be sensitized to what 
their military needs are, help us to stay out of these 
quagmires in terms of what the military needs to have their 
operations being run at a timely fashion, to train our young 
men and women for combat.
    I don't want to be in a situation where we are simply 
saying that integrated natural resource management plans are 
not effective, because they are. They provide a mechanism for 
us to plan. They provide a mechanism for us to conserve, but 
they also provide an opportunity for us to identify problems, 
particularly as it relates to endangered species, early in the 
process so that we can develop methods by which we can employ 
these operations and still preserve these habitats, and I agree 
with you--
    Mr. Cunningham. If the gentleman would yield, I support the 
integrated natural resource management plans. My problem is 
where they go awry and we allow the extreme issues to take 
over, override the training. That is my only heartburn issue.
    Mr. Tuggle. And I would agree with you, and I would submit 
that when we have the opportunity to sit down early in the 
process and consult with these military installations, the 
opportunity to work out those differences are a lot greater.
    Mr. Gilchrest. Thank you, Mr. Cunningham.
    I have just one other question. I would like to make a 
comment. If you are 85, then, Ray, we are still relatively 
young. So probably living quite a distinct different lifestyle 
now than we did 40 years ago. I was stationed at Camp Pendleton 
and Camp Lejeune and all these other places, and we drove 
tanks, and we used live fire, and we dug fox holes, and we did 
all this including in places like Vieques and numerous other 
facilities.
    But we didn't have a concept or an understanding of an 
ecosystem back then, and it was also a lot more habitat back 
then for species 40 years ago. So it is the loss of habitat 
across the civilian areas of this country that makes it more 
critical and a sense of urgency to save species wherever we 
can, and fortunately or unfortunately, many of our open spaces 
that are near built-up areas are military facilities. So what 
we will try to do as we go through a consideration for amending 
the Sikes Act is to understand the absolute urgency for 
training, which is critical, also understanding that an 
informed recognition of habitat for a species is an important 
arena for us to stay involved in, and so we will. We will try 
to make that critical balance between habitat and training on 
military installations, and in a broader sense, work even more 
diligently and harder to use those kind of ecosystem concepts 
that you are implementing on the military facilities for lands 
around the country. We had a concept of no net loss of wetlands 
about 10 years ago. I think that the concept of increasing 
wetland acreage and increasing habitat is an important issue 
that we need to deal with. But we will work with all of you to 
try to balance what is clearly an important issue here.
    If you could all just briefly comment on outsourcing, which 
is another critical issue that we have, from your individual 
perspective, outsourcing of contracts for professional 
biologists, is it a good thing? Can it be done? Some people are 
asking for an amendment to establish a moratorium on 
contracting out and outsourcing authority. So just a quick 
comment on the idea of outsourcing.
    We can start with Mr. Baughman.
    Mr. Baughman. Thank you, Mr. Chairman. The thing that 
concerns us with outsourcing is that part of it is a lack of 
dedication, a lack of continuous dedication that you might get 
with a turnover of biologists overseeing these programs. Most 
companies just make a profit. When you have people on staff, 
you ensure the continuity of the program, and we feel that 
there is more of a dedication to that resource. Like it or not, 
I think a lot of these people, they develop a personal 
ownership for those resources, and we think it works better.
    Mr. DuBois mentioned the fact that certainly we wouldn't 
want to not look at competition in some cases, and that 
competition which would involve the government as well as 
private contractors. I think there certainly is room for that 
competition in most cases. I think the Government can do that 
job very well and compete, but I think that dedication and 
continuity are our big concerns.
    Mr. Gilchrest. Thank you.
    Dr. Tuggle.
    Mr. Tuggle. I would echo my colleague from International's 
statements earlier, and I would defer to either of them. But I 
would also share with you that we have at least anecdotal 
evidence that when we receive integrated natural resource 
management plans in a draft condition for our initial review, 
generally they are better when they are prepared by these 
professionals that are at the installations for the very same 
reasons that we are talking about. They are the ones that are 
on the ground. They have the long-term memory. They are in a 
place where they understand what those management implications 
are in terms of not only what takes place on the installation, 
but also the surrounding environment outside of the fences of 
the installation.
    Mr. Gilchrest. Thank you, Dr. Tuggle.
    Mr. DuBois?
    Mr. DuBois. I think that, as I indicated, in those cases 
where the natural resources management decisions to be made 
reflect issues of enforcement or reflect issues of value 
judgments at the managerial or policy level, policymaking 
levels, the Department will ensure that these decisions are 
made and continue to be made by Government employees.
    But where the work to be done is more in the nature of a 
service, the performance of field surveys, the implementation 
of agreed-upon habitat improvement projects, routine timber 
stand thinning, for instance, I think it is appropriate to 
decide on a case-by-case basis whether the work ought to be 
performed best and most efficiently by civil servants or by 
Federal and State agencies, by NGO's or by the private sector.
    But in no case, however, will we compromise our capability 
to ensure the protection of the resources entrusted to us.
    Mr. Gilchrest. Thank you, Mr. DuBois.
    I will yield now to my good friend from New Jersey, Mr. 
Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to ask Mr. 
DuBois a couple of questions, and then I wanted to go to Mr. 
Tuggle.
    Mr. DuBois, does the DOD have data showing the difference 
in either military readiness or achievement of conservation 
goals when a critical habitat designation is in place as 
opposed to an INRMP? Do you have data that shows that 
difference?
    Mr. DuBois. Mr. Pallone, as you know, you have asked I 
guess two important questions. One is data pertaining to 
military readiness. Pursuant to the GAO's request and 
Congress's request of me last year, I put into place an effort 
to try to quantify, as I indicated, there is military unit 
training readiness reporting, which we do have. But what we 
don't have--and GAO pointed this out--we don't have readiness 
reporting for the facility, the training range itself. The 
Marines and the Army, in separate efforts, have tried to 
quantify this and put into place ways to be able to effectively 
report to the Secretary and ultimately to the Congress. So that 
is one area that we are trying to do better.
    Mr. Pallone. Well, let me ask you this. You mention this 
GAO report. This is the one in March of this year?
    Mr. DuBois. This was a GAO report from 2 years ago.
    Mr. Pallone. But the GAO report from 2 years ago said that 
the readiness reports didn't indicate the extent to which 
environmental regulations restrict combat training, right? But 
then there was another one in this March that said that a new 
comprehensive reporting system to improve the accuracy or 
readiness assessment is still years away. 2007, I guess. How 
are we going to evaluate to the extent to which these critical 
habitat designations have restricted training? I mean, we won't 
be able to--
    Mr. DuBois. We have extensive evidence, and I believe the 
GAO report indicated there is a serious impact on the ability 
of these training ranges to provide--I think it is even on page 
9, if I remember correctly, because I had to quote it when I 
was testifying in front of the Senate--there have been and 
continue to be impacts, negative impacts on training and 
readiness.
    The extent to which--and I think it is important to clarify 
a mistake made by the Washington Post recently, where--
    Mr. Pallone. You can talk about the Washington Post, but 
you know what I am trying to get at. I understand there may be 
some impacts, but you are saying, ``We would rather do the 
INRMPs than the critical habitat. We want legislation to 
clarify that.'' But how can I evaluate that as a Member of 
Congress unless we have something that says how one system 
versus the other impacts readiness? I am not going to get that. 
How do I move forward with any kind of legislative remedy until 
I have something to compare. That is what I am asking.
    Mr. DuBois. It is a valid question, and we have evidence 
today, and we will have better evidence by the end of this 
year, on the impacts, the negative impacts on our ability to 
train, on our ability to use these training ranges effectively 
with a high degree of fidelity, negative impacts on the basis 
of the third party lawsuits that have been brought against us, 
whether it is under endangered species or CERCLA and RCRA, as 
was the case in Fort Richardson in Alaska, as was the case in 
the Migratory Bird Treaty Act that Congress did act on last 
year.
    Mr. Pallone. Are you going to put in place--again, I am not 
trying to be difficult, but are you going to try to put in 
place some kind of reporting system or some way for me to make 
this evaluation?
    Mr. DuBois. Yes.
    Mr. Pallone. When do you think we will get that?
    Mr. DuBois. I do not believe I will have that information 
even in its most preliminary form, until sometime in late 
summer or early fall.
    Mr. Pallone. OK.
    Mr. DuBois. And I am answering you honestly.
    Mr. Pallone. No, that is fine.
    Mr. DuBois. The issue is joined. I think Congressman 
Cunningham made the comment about years ago--excuse me--
Chairman Gilchrest, we didn't know what an ecosystem was. 25 
years Secretary Rumsfeld and I were in the Pentagon. 
Encroachment wasn't a term in our military--
    Mr. Pallone. I understand. I am not being critical. I am 
just saying, if you think that sometime later this year you 
will be able to put some system in place to make that 
evaluation, the end of this summer or--
    Mr. DuBois. Yes. As I indicated, the Marines already have a 
system. We are trying to figure out is it applicable to the 
Army and the Air Force and the Navy. For those of you who know, 
each culture is slightly different, and they don't necessarily 
embrace one--
    Mr. Pallone. I know. I am preparing for my own 
purpleization at home with BRAC, so I know what you are talking 
about.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    The gentlelady from Guam?
    Ms. Bordallo. Thank you very much, Mr. Chairman. I have a 
couple of questions again for Mr. DuBois.
    This is on contracting work. When contracting out work, 
have you used Circular A-76, and if so, in roughly how many 
instances have public employees won in those public/private 
competitions?
    Mr. DuBois. Yes, ma'am. Under the Sikes Act my recollection 
is that we are proscribed from using A-76. Therefore, to the 
best of my knowledge, no A-76 action has been taken with 
respect to natural resources services or environmental services 
functions. Having said that, A-76 is not the only way that one 
can outsource or compete functions in the Department. Now, I 
understand, according to my notes here, during the past 5 
years, there were 292 positions competed which fell under the 
category, quote, ``Environmental and Natural Resources 
Services,'' end quote, function. 59 of those ended up being won 
by the private sector. Now, given that this function code is 
much broader than simply an INRMP position, I cannot answer you 
with details, but I would suspect that there are obviously 
fewer than 59 positions have gone to the private sector.
    Ms. Bordallo. Out of the 259?
    Mr. DuBois. Out of the 292, fewer than 59--59 were 
positions that had gone to the private sector, but again, 
because it is a large general category, there would arguably be 
less than 59.
    Mr. Gilchrest. Will the gentlelady yield just for a quick 
question?
    Ms. Bordallo. Yes, of course.
    Mr. Gilchrest. Are there any private contractors doing any 
INRMPs right now?
    Mr. DuBois. I don't know the answer to that. I take it for 
the record, Mr. Chairman, and will find out. I do not believe 
so, but if my colleagues have evidence to the contrary, I will 
take it under advisement.
    Mr. Gilchrest. I yield back.
    Ms. Bordallo. Thank you, Mr. Chairman..
    Do you believe, sir, that work that involves natural 
resource related activities is inherently governmental or that 
there is commercial for profit vested interest in conservation 
work?
    Mr. DuBois. As I indicated, any time there is a managerial 
decision to be made, a policy decision to be made, an 
enforcement decision to be made, they are inherently 
governmental and will not be competed. But issues like timber 
land thinning, as I indicated, field surveys--
    Ms. Bordallo. Technical work.
    Mr. DuBois. What I referred to as services that are not--
excuse me, I don't mean to be tautological about this--but 
inherently governmental, I think we should have an opportunity 
to compete. Remember, in local areas, as in many cases in the 
country, there are environmental organizations that are every 
bit if not better qualified on a technical and scientific basis 
that give us advice and counsel and consult to us. Therefore, I 
see benefits by contracting out some of those functions.
    Ms. Bordallo. Thank you. Thank you, sir.
    Mr. Gilchrest. Thank you. We have some other questions. We 
are running out of time. We have another panel. So what we 
would like to do, gentlemen, is to follow up over the next day 
or two, and send those questions to you, myself and Mr. Pallone 
and any other member on the panel, in the hopes of getting a 
timely response. And there are some other critical issues that 
we would like to continue to pursue via the mail or telephone 
conversations, so we can pursue all of these issues.
    Thank you very much for testifying this morning. We 
appreciate your comments, and they have all been very, very 
helpful.
    [Pause.]
    Mr. Gilchrest. The next panel is Mr. Chester O. Martin, 
president, National Military Fish and Wildlife Association; Mr. 
Gene Rurka, Chairman, Humanitarian Services Committee, Safari 
Club International; Lieutenant Colonel A. Lewis Deal, USMC 
[Retired], director of Outdoor Sports Development, Paralyzed 
Veterans of America; Mr. Dan Meyer, general counsel, Public 
Employees for Environmental Responsibility.
    Welcome, gentlemen. We look forward to your testimony. We 
appreciate your attendance here this morning, and we will take 
all of your comments into consideration as we go through this 
next round of reauthorization for the Sikes Act.
    Mr. Martin, you may begin, sir.

          STATEMENT OF CHESTER O. MARTIN, PRESIDENT, 
        NATIONAL MILITARY FISH AND WILDLIFE ASSOCIATION

    Mr. Martin. Good morning, Mr. Chairman and Committee 
members. As president of the National Military Fish and 
Wildlife Association, I thank the members and staff of this 
Committee and Subcommittee for the opportunity to testify 
regarding the Sikes Act and its impact to National Resources 
Management on military lands of the United States. I 
specifically thank Congressman Gilchrest for the invitation to 
speak at this hearing.
    The National Military Fish and Wildlife Association is an 
organization whose mission is to support professional 
management of all natural resources on military lands and 
waters of the United States. Our membership represents the 
biologists, foresters, agronomists and other natural resource 
specialists who are responsible for professional management of 
fish and wildlife, forests and timber products, soils and 
ground cover, habitat restoration, rangeland stabilization, 
outdoor recreation and all other programs that relate to the 
conservation of natural resources on Defense lands.
    As previously stated, the Department of Defense manages 
approximately 25 million acres of land in support of the 
military mission. These are lands dedicated to the purpose of 
national security and providing a training and testing platform 
for our Nation's soldiers, sailors, Marines and airmen who 
depend upon these lands to ensure their combat readiness.
    As a Vietnam War veteran, I am well aware of the need for 
training on a natural landscape. If we are to sustain quality 
training and testing on the lands and waters that we currently 
possess, we must ensure that the military landscape is 
maintained in a condition where realistic training and testing 
can continue without interruption.
    The centerpiece of natural resources management on military 
lands is the Integrated natural Resources Management Plan or 
INRMP, as I will refer to it in my testimony. The INRMP is a 
written document, developed in cooperation with the State 
wildlife agencies and the Fish and Wildlife Service that 
establishes management priorities for natural resources and 
ensures compatibility with the defense mission of the 
installation.
    The intent of Congress was absolutely clear in the 1997 
Sikes Act amendments. INRMPs must be implemented. 
Implementation of INRMPs is critical not only for appropriate 
conservation of natural resources, but also for protection of 
the military mission. The requirement for ``no net loss'' of 
military training and testing capability of the land ensures 
that our Defense needs will be sustained.
    Unfortunately, while DOD has generally recognized the 
requirement to fund and implement INRMPs, the reality of the 
situation is that the services have failed to fully fund 
implementation of INRMPs. ``Must Fund'' designation means very 
little if DOD fails to fund the projects. We are, in fact, 
aware of cases where the services have provided funding for as 
little as 20 percent of the annual ``Must Fund'' INRMP 
requirements.
    Failure to fund and implement the plans remains a threat, 
since the Sikes Act contains no compliance provisions. When 
compliance provisions were suggested during negotiations for 
the 1997 amendment, DOD made commitments to this Committee to 
fully fund and implement INRMPs, but the past 5 years has 
demonstrated that the services did not live up to the DOD's 
promise. Our association feels that it may be necessary to 
include some sort of compliance provisions in the Act should 
DOD fail to fully fund and implement INRMPs in the future.
    Another issue of critical importance to us is the current 
Sikes Act requirement that DOD use ``sufficient numbers of 
professionally trained Natural Resources management personnel 
and Natural Resources law enforcement personnel'' to carry out 
the preparation and implementation of INRMPs. This is tied to 
the language in Section 1 of the Sikes Act, where the clear, 
concise language precludes the use of OMB Circular A-76 and any 
successor process to ``contract out'' services necessary for 
implementation and enforcement.
    Some military branch leaders have implied that the Fair Act 
overrides the Sikes Act and that there is no requirement that 
onsite Government Natural Resources professionals implement the 
plans. The National Military Fish and Wildlife Association 
emphatically disagrees. We recommend that these two sections of 
the Act be brought together and that they further define onsite 
management and enforcement of natural resources as inherently 
governmental. We further recommend that Congress consider 
including language to establish a moratorium on further 
outsourcing of Natural Resources management positions at 
installations.
    The Association also continues to support access to 
military lands for all appropriate public uses, such as 
hunting, trapping and fishing. We continue to support the 
requirements of the Disabled Sportsmen's Access Act of 1998. To 
the extent that public access is allowed, disabled sportsmen's 
access should remain a priority.
    We also support the concept that the Sikes Act should 
continue to include an authorization for the Department of 
Interior and State agencies that assist DOD in preparation, 
review and implementation of INRMPs on military lands.
    One final thing. The current Sikes Act has been amended 
many times over the last 40 years, but we consider the 1986 and 
1997 amendments to be the most significant. Both amendments 
were championed by Congressman Don Young of Alaska, and we 
would consider it entirely appropriate, should the name of the 
Act be changed to reflect Congressman Young's contribution. 
Whether the Act becomes known as the Sikes-Young or Young-
Sikes, we believe it is an honor that is richly deserved.
    In conclusion, next to our soldiers, sailors, airmen and 
Marines, our military lands, airspace and off-shore areas are 
our most valuable assets. The Sikes Act is critical to their 
protection.
    The remainder of my testimony may be found in my written 
report. Thank you again for the privilege of speaking at this 
hearing.
    [The prepared statement of Mr. Martin follows:]

              Statement of Chester O. Martin, President, 
            National Military Fish and Wildlife Association

    Good morning Mr. Chairman, Committee members. As President of the 
National Military Fish and Wildlife Association, I thank the members 
and staff of this Committee and Subcommittee for the opportunity to 
testify regarding the Sikes Act and its impact to natural resources 
management on military lands of the United States. I specifically thank 
Congressman Gilchrest for the invitation to speak at this hearing.
    The National Military Fish and Wildlife Association is an 
organization whose mission is to support professional management of all 
natural resources on military lands and waters of the United States. 
Our membership represents the biologists, foresters, agronomists, and 
other natural resource specialists who are responsible for professional 
management of fish and wildlife, forests and timber products, soils and 
ground cover, habitat restoration, rangeland stabilization, outdoor 
recreation (e.g., hunting, fishing, camping, wildlife viewing) and all 
other programs that relate to the conservation of natural resources on 
Defense lands.
    The Department of Defense manages approximately 25 million acres of 
lands in support of the military mission. Although often overlooked, 
the Department of Defense is the third largest landholder and natural 
resource management agency in the Federal Government <SUP>1</SUP>. 
These are lands dedicated to the purpose of national security and 
providing a training and testing platform for our nation's soldiers, 
sailors, marines, and airmen who depend upon these lands to ensure 
their combat readiness as the world's premier fighting force.
---------------------------------------------------------------------------
    \1\ Department of Interior and Department of Agriculture are both 
considerably larger.
---------------------------------------------------------------------------
    As a Vietnam War Veteran, I am well aware of the need for training 
on a natural landscape. If we are to sustain quality training and 
testing on the lands and waters that we currently possess, must ensure 
that the military landscape is maintained in a condition where 
realistic training and testing can continue, without interruption.
    The centerpiece of natural resource management on military lands is 
the Integrated Natural Resources Management Plan, or ``INRMP'' as I 
will refer to it in my testimony. The INRMP is a written document, 
developed in cooperation with State wildlife agencies and the U.S. Fish 
and Wildlife that establishes management priorities for natural 
resources and ensures compatibility with the defense mission of the 
installation. INRMP preparation requires extensive public involvement 
and review. These plans are reviewed annually and face a major revision 
not more than every five years. Most INRMPs include specific project 
lists, which provide the means to determine if implementation has 
occurred.
    The intent of Congress was absolutely clear in the 1997 Sikes Act 
Amendments. INRMPs must be implemented. Implementation of INRMPs is 
critical, not only for appropriate conservation of natural resources 
but also for protection of the military mission. The requirement for 
``no net loss'' of military training and testing capability of the land 
ensures that our Defense needs will be sustained.
    Unfortunately, while Department of Defense has generally recognized 
the requirement to fund and implement INRMPs, the reality of the 
situation is that DoD and the services have failed to fully fund 
implementation of INRMPs. ``MUST FUND'' designation means very little, 
if DoD fails to fund the projects. We are aware of some installations, 
where the services have provided funding for as little as 20% of annual 
``must fund'' INRMP requirements <SUP>2</SUP>.
---------------------------------------------------------------------------
    \2\ For Example: At White Sands Missile Range, NM, the total 
recognized requirement for Conservation Program funding for fiscal year 
03 is $5.9M, of which $4.7M is ``MUST FUND''. Of that total, only $749K 
was funded. This reflects only 16% of MUST FUND Requirements.
---------------------------------------------------------------------------
    Failure to fund and implement the plans remains a threat, since the 
Sikes Act contains no compliance provisions. When compliance provisions 
were suggested during negotiations for the 1997 amendment, DoD made 
commitments to this Committee to fully fund and implement INRMPs 
<SUP>3</SUP>, but the past five years have demonstrated that the 
services were unwilling to live up to DoD's promise. Our association 
feels that it may be necessary to include some sort of compliance 
provisions in the Act, should DoD fail to fully fund and implement 
INRMPs in the future.
---------------------------------------------------------------------------
    \3\ Statement of Ms. Sherri W. Goodman Deputy Under Secretary of 
Defense (Environmental Security) Before the House Subcommittee on 
Military Installations and Facilities, House Armed Services Committee 
``Natural Resource Management on Military Lands''--June 29, 1994 (page 
4 of testimony) and Statement of Sherri W. Goodman Before the House 
Resources Subcommittee on Fisheries, Wildlife and Oceans in Connection 
with H.R. 1141, Sikes Act Amendments--16 March 1995 (pages 1 & 2 of 
testimony).
---------------------------------------------------------------------------
    Another issue of critical importance to us is the current Sikes Act 
requirement that DoD use ``sufficient numbers of professionally trained 
natural resources management personnel and natural resources law 
enforcement personnel'' to carry out the preparation and implementation 
of INRMPs <SUP>4</SUP>. This is then tied to the language in Section 1 
of the Sikes Act where the clear, concise language precludes use of OMB 
Circular A-76 and any successor process to ``contract out'' services 
necessary for implementation and enforcement. Military service branch 
leaders have implied that the Fair Act overrides the Sikes Act and that 
there is no requirement that on-site, government natural resources 
professionals implement the plans. The National Military Fish and 
Wildlife Association disagrees. We recommend that these two sections of 
the Act be brought together and that they further define on-site 
management and enforcement of natural resources as inherently 
governmental. We further recommend that Congress consider including 
language to establish a moratorium on further outsourcing of natural 
resources management positions at installations.
---------------------------------------------------------------------------
    \4\ Section 107 of the Sikes Act. (16USC670e-2).
---------------------------------------------------------------------------
    This is not to say that implementation of all projects should be 
conducted with only government personnel. In fact, other existing 
provisions of the Act have been extremely useful in allowing us to 
outsource or contract specific, labor intensive projects and programs, 
where that is the most efficient mechanism. We wish to retain this 
ability as well. But the oversight and management of INRMP 
implementation should remain in the hands of professionally trained, 
on-site, government personnel.
    The Association also continues to support access to military lands 
for all appropriate public uses, such as hunting, trapping, and 
fishing. We continue to support the requirements of the Disabled 
Sportsmen's Access Act of 1998. To the extent any public access is 
allowed, disabled sportsmen's access should remain a priority.
    The National Military Fish and Wildlife Association supports 
continued authorizations in the amount of $1,500,000 for each of the 
next five years for the Department of Defense. We also support the 
concept that the Sikes Act should continue to include an authorization 
for the Department of Interior and State agencies that assist DoD in 
preparation, review, and implementation of INRMPS on military lands. 
The pass-through to the States should be part of the DOI authorization. 
This will partially reimburse the States for their work in development 
and implementation of INRMPs at the installation level. The 
authorization should be at not less than the current $3,000,000 per 
year, divided evenly between the States and the DOI.
    One final thing--The current Sikes Act has been amended many times 
over the last 40 years, but we consider the 1986 and 1997 amendments to 
be the most significant. Both amendments were championed by Congressman 
Don Young of Alaska. We would consider it entirely appropriate, should 
the name of the Act be changed to reflect Congressman Young's 
contributions. Whether the Act becomes known as Sikes-Young or as 
Young-Sikes, we believe it is an honor that is richly deserved.
    In conclusion, next to our soldiers, sailors, airmen, and marines, 
our military lands, airspace, and off-shore areas are our most valuable 
assets. The Sikes Act is critical to their protection.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Martin. I am sure 
Don will be happy to hear your comments. I will pass them along 
to him today.
    Mr. Rurka?

   STATEMENT OF GENE RURKA, CHAIRMAN, HUMANITARIAN SERVICES 
              COMMITTEE, SAFARI CLUB INTERNATIONAL

    Mr. Rurka. Mr. Chairman and distinguished members of the 
Committee, thank you for giving me the opportunity to speak to 
you today.
    I am here in support of the Sikes Act. I speak to you today 
not as a person with a disability, but rather as one who has 
been actively involved with physically handicapped and 
challenged individuals for numerous years.
    During my high school and college years, I lived with and 
cared for an amputee. I have seen and been actively involved in 
the unique needs and challenges of a wheelchair-bound, 
physically handicapped person.
    As Chairman of the Humanitarian Services for Safari Club 
International, Safari Club International Foundation, I have had 
the responsibility for all of our humanitarian programs for 
physically challenged individuals and have been extremely 
active in all of them. One of these programs, the Special 
Hunter Program, sparked the development of the Pathfinder 
Award. This award honors those handicapped and disabled 
individuals who have demonstrated the ability to overcome 
challenges and obstacles that so often prevent them from 
enjoying life's opportunities.
    As an addition to my written report, let me comment that we 
present to these award winners what we consider to be a very 
important part of their unique needs. Normally, the family 
members have gone through economic sacrifices.
    We present them with a chance to participate in a sport 
they have enjoyed by sending them someplace in the world with a 
family member or support staff so they can enjoy the 
photography, the hunting, the fishing that no one else would 
provide for them. So the private sector is coming to their, I 
don't want to say rescue, but to their help to allow them to 
make that decision to take a week or two or three. You would be 
surprised how beneficial that is not only for the State, but 
for the world to see these people out there doing the things 
they love to do.
    Also, to help us along with these awards, General Norman 
Schwarzkopf, Chuck Yeager, and people of those caliber are on 
stage with us helping presenting them with the fishing rods, 
the rifles, the boat, et cetera, that make this thing a great, 
great program, and we are very, very proud of this.
    I have had extensive involvement in the development of 
photography, and shooting and fishing apparatus for 
quadriplegics and paraplegics. I would like to, at this time, 
submit some evidence to you. This is, by no means, a full 
document of what we have, but if you have a chance to look at 
this, not only the brochure, but some of the equipment, this 
was developed for the paraplegic group.
    Mr. Rurka. We can put cameras, again, you see a still 
camera on one still frame. We have a similar attachment for a 
video camera. We have a cross-bow attachment, we have fishing 
attachments, and I will add that this entire unit will be 
available in catalogues, such as Cabela's, Bass Pro, Orvis very 
soon, so that your fishing and hunting buddy can go with you. 
By just making a call on a credit card and bring this home, it 
is installed on a wheelchair in 10 minutes.
    The only addition I would add, which I don't have pictures 
here, is for the quadriplegic individual--man or woman or 
child--we have added 12-volt micro motors which are run by sip-
and-puff switches and chin switches based on the disability. I 
don't have those here, but they are almost identical. But they 
use sip and puff to move, elevation, left and right, and then 
the chin switch for release. That can also be used for cameras.
    I do a lot of work with National Geographic, and we were 
talking about this just recently in Manhattan, and we feel that 
these individuals may be our next major documentary winners, 
maybe even of an Academy Award. They have the abilities. They 
have, obviously, the composure, the demeanor to sit there and 
look at nature as we might not see it.
    With this equipment, they can get out there, with a limited 
amount of help, and produce some fabulous, fabulous things for 
us. So that is an addition.
    I have also been fortunate to have initiated numerous 
opportunities for our disabled sports people to enjoy the 
outdoors with the use of private facilities provided by 
numerous men and women of our hunting community. I know we can 
make a major difference.
    We now need the access and property to provide our 
physically handicapped veterans and individuals with the chance 
to enjoy recreational opportunities of the great outdoors. It 
is with this in mind that I endorse the efforts of this 
Committee to permit access for our handicapped and disabled 
veterans and individuals to utilize military facilities for 
sporting opportunities.
    This legislation fulfills many needs.
    One, it promotes the opportunity for Government, through 
the Department of Defense, to partner with private 
organizations to construct facilities and operate programs for 
sports people with disabilities at no cost to the Federal 
Government.
    No. 2, the legislation allows the Department of Defense to 
accept donations of materials and volunteers for construction 
of facilities accessible to sportsmen and women with 
disabilities. This partnership between the Department of 
Defense and the private sector has been a great success in the 
past and can be seen in operation at the Quantico Marine base 
in Virginia.
    Disabled Sportsmen Access will provide increased 
opportunities for many disabled American sportsmen and women to 
overcome obstacles of their handicap. By giving them access to 
this unique part of our country, they can now enjoy and fulfill 
the adventures of the outdoors, which you and I may sometimes 
take for granted.
    The United States Federal lands are a part of America's 
heritage and part of its living legacy to all citizens, 
including disabled sportsmen and women.
    I hope you will vote in favor of this legislation, and I 
thank you for the opportunity to address the Committee, and I 
offer you the opportunity to have me answer any questions.
    Thank you.
    [The prepared statement of Mr. Rurka follows:]

  Statement of Gene Rurka, Chairman, Humanitarian Services Committee, 
                       Safari Club International

    Mr. Chairman and distinguished members of this Committee. Thank you 
for granting me the opportunity to speak to you today.
    I am here to speak in support of the Sikes Act, particularly as it 
relates to the disabled sportsmen.
    I speak to you today not as a person with a disability, but rather 
as one who has been actively involved with the physically handicapped 
and challenged individuals for numerous years.
    During my high school and college years, I lived with and cared for 
an amputee. I have seen and been actively involved in the unique needs 
and the challenges of a wheelchair bound, physically handicapped 
person.
    As chairman of the Humanitarian Services Committee for Safari Club 
International/Safari Club International Foundation, I have the 
responsibility for all of our humanitarian programs for physically 
challenged individuals, and have been extremely active in all of them. 
One of these programs, the Special Hunter Program, sparked the 
development of the Pathfinder Award. This award honors those 
handicapped and disabled individuals who have demonstrated the ability 
to overcome challenges and obstacles that so often prevent them from 
enjoying life's opportunities.
    Not only have I had extensive involvement in the development of 
photography, shooting and fishing apparatus for quadriplegics and 
paraplegics, I have also been fortunate to have initiated numerous 
opportunities for our disabled sportspeople to enjoy the outdoors 
through the use of private facilities provided by the numerous men and 
women of our sport hunting community. We can make a difference.
    We now need the access and the property to provide our physically 
handicapped veterans and individuals with a chance to enjoy the 
recreational opportunities of the great outdoors. It is with this in 
mind that I endorse the efforts of this Committee to permit access for 
our handicapped and disabled veterans and individuals to utilize 
military facilities for sporting opportunities.
    This legislation fulfills many needs.
    1) LIt promotes the opportunity for the government, through the 
Department of Defense, to partner with private organizations to 
construct facilities and operate programs for sportspeople with 
disabilities at NO COST TO THE FEDERAL GOVERNMENT
    2) LThis legislation allows the Department of Defense to accept 
donations of materials and volunteers for the construction of 
facilities accessible to sportsmen and women with disabilities.
       LThis partnership between the Department of Defense and the 
private sector has been a great success in the past and can be seen in 
operation at the Quantico Marine base in Virginia.
    3) LThe Disabled Sportsmen Access Act will provide increased 
opportunities for many disabled American sportsmen and women to 
overcome the obstacles of their handicap. By giving them access to this 
unique part of our country they can now enjoy and fulfill the 
adventures of the outdoors, which you and I sometimes take for granted.
    The United States Federal lands are a part of America's heritage 
and part of its living legacy to all its citizens, including disabled 
sportsmen and women.
    I hope you will vote in favor of this legislation and I thank you 
for the opportunity to address this Committee.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Rurka, and thank you for your 
dedication and your wonderful work.
    Colonel Deal, good morning.

STATEMENT OF LIEUTENANT COLONEL A. LEWIS DEAL, USMC [RETIRED], 
 DIRECTOR OF OUTDOOR SPORTS DEVELOPMENT, PARALYZED VETERANS OF 
                            AMERICA

    Colonel Deal. Good morning, sir. Mr. Chairman, members of 
the Subcommittee, I will keep my remarks brief. I would like to 
submit an attachment to my prepared statement. It is an article 
that appeared in PVA's magazine. It outlines our initial 
efforts to provide accessible equipment to the military 
installations.
    Mr. Gilchrest. All material that is submitted this morning 
will be a part of the record.
    Colonel Deal. Thank you, sir.
    [NOTE: The PVA article submitted for the record has been 
retained in the Committee's official files.]
    Colonel Deal. First, thank you for allowing the Paralyzed 
Veterans of America to be here today.
    The journey that has brought us here to discuss the 
Disabled Sportsmen's Access Act started exactly 10 years ago. 
It started with the simple goal to allow disabled veterans the 
opportunity to hunt at Quantico. We have come a long way, and 
because of the Disabled Sportsmen's Access Act, the quality of 
life for our disabled veterans and military dependents with 
disabilities has vastly improved.
    It is amazing the impact of having accessing to the great 
outdoors can have on someone with a physical disability. It is 
more than recreation. It is therapy. As we all know, there are 
thousands of our brave men and women in uniform going in harm's 
way to defend our great way of life. For those who will pay a 
heavy price for our freedom and come home to live with that 
sacrifice every day, the Disabled Sportsman's Access Act and 
the opportunities it provides should continue to be there for 
them.
    PVA has been diligently working to make this historic law a 
reality. As you can see from my submitted statement, one of 
PVA's major national programs is donating adaptive outdoor 
equipment to military installations. The equipment list ranges 
from elevating stands to pontoon boats. Why? PVA views adaptive 
equipment as a critical bridge between accessibility and 
participation in traditional outdoor sports for the physically 
challenged. It is also an example of how we in the military are 
taking care of our own.
    Additionally, we at PVA, from the national office to our 36 
chapters across the country, are here to help any military 
installation with the procedures of how to expand their 
traditional outdoor sports programs to include disabled vets. 
We will also gladly assist with barrier-free designs. For 
example, PVA worked from Day One with Quantico on the design of 
the fully accessible Sergeant Joe Fox Fishing Facility. Joe Fox 
is the president of PVA and was a Marine in Vietnam and was 
wounded.
    The Disabled Sportsmen's Access Act is, without a doubt, a 
success. I know because I have been on many military bases and 
have seen firsthand the results. As I stated earlier, we have 
come a long way, but we still have a long way to go. There are 
still thousands of disabled veterans waiting for their chance 
to do a little hunting and fishing aboard a nearby military 
base, and we at PVA want you to know that the Disabled 
Sportsmen's Access Act will remain one of our top priorities 
and that you can count on us to continue to support it.
    Thank you, sir. Are there any questions?
    [The prepared statement of Lt. Colonel Deal follows:]

Statement of Lt. Col. Lew Deal, USMC, Ret., Director of Outdoor Sports 
               Development, Paralyzed Veterans of America

    Chairman Gilchrest, Ranking Member Pallone, members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to testify today regarding H.R. 1497, the Sikes 
Act Reauthorization Act of 2003. I will focus my testimony today on the 
importance, success and future of the Disabled Sportsman's Access Act.
    I am Lt. Col. Lew Deal, Director of Outdoor Sports Development for 
PVA and it is an honor and privilege to be invited to speak before the 
Subcommittee. PVA is a veterans service organization chartered by the 
United States Congress with members in all fifty states and Puerto 
Rico. All of PVA's members are veterans of the armed services and have 
experienced either spinal cord injury or dysfunction.
    Let me begin with a brief overview of the history and background of 
the Disabled Sportsmen's Access Act. As I stated in my testimony of 14 
May 1998, the genesis and foundation of the Disabled Sportsmen's Access 
Act (DSAA) began when I read an article in the March 1993 Outdoor Life 
magazine on sportsmen with disabilities. It occurred to me civilians 
could hunt at Marine Corps Base (MCB) Quantico but my disabled veteran 
friends could not. I approached the base commanding general with a plan 
to rectify this situation. His response was ``Make it happen.''
    The very first organization I contacted was the Paralyzed Veterans 
of America. Together MCB Quantico and PVA initiated the now highly 
successful hunting and fishing program for disabled veterans. From this 
experience I put together a proposal to open all military bases for 
disabled veterans. As an active duty officer I could not approach 
Members of Congress with the idea. In 1998 after several years of 
frustration, I approached Tom Saddler of the Congressional Sportsmen's 
Foundation (CSF) with my concept. After reading the proposal he 
immediately took it to Rep. Duke Cunningham. In October I was invited 
by CSF to give a presentation on the Quantico program and the national 
program concept. That month legislation was introduced by Rep. 
Cunningham and Sen. Conrad Burns (H.R. 2760 and S. 1351, respectively). 
With a long list of co-sponsors and PVA providing key leadership with 
recruiting other organizations, support for the legislation quickly 
grew. In 1998 the Disabled Sportsmen's Access became law.
    After retiring from the Marine Corps in 1999 I joined the PVA 
national staff. Immediately we launched a program to provide military 
bases with adaptive outdoor sports equipment. PVA views adaptive 
equipment as the critical bridge between accessibility and 
participation in traditional outdoor sports for people with 
disabilities. With generous annual funding support from Anheuser-Busch 
the list of military installations receiving adaptive equipment 
continues to steadily grow. To date PVA has donated various types of 
adaptive equipment outdoor sports equipment (pontoon boats, popup 
ground blinds, and elevating stands) to the following bases: Fort Hood, 
TX; Camp Lejeune, NC; Eglin AFB, FL; Fort A.P. Hill, VA; Fort Leonard 
Wood, MO; Fort Sill, OK; Little Rock AFB, AR; NAS Meridian, MS; NWS 
Yorktown, VA; Redstone Arsenal, AL; and MCB Quantico, VA.
    In 2003 PVA has plans for additional equipment donations to Fort 
Bragg, NC; Fort Benning, GA; and MacDill AFB, FL. PVA also worked with 
MCB Quantico, VA in the construction of a fully accessible fishing 
facility. This site was named the ``Sgt. Joe Fox Fishing Facility'' in 
honor of PVA's current National President. As directed by the DSAA this 
equipment is available for use in the following order: disabled 
veterans, military dependents with disabilities, and all other people 
with disabilities. The DSAA, coupled with the adaptive equipment 
donations, is having a significant, positive effect on the ``quality of 
life'' for thousands of disabled citizens across the country. Last fall 
at the NWS Yorktown PVA equipment donation ceremony, Rep. Jo Ann Davis 
stated: ``I can't imagine not being able to enjoy the outdoors. I think 
this Huntmaster is a step toward changing that for disabled veterans. 
With the help of this stand, they will be able to break down one more 
barrier''.
    PVA will gladly and enthusiastically continue to support the DSAA 
and provide adaptive outdoor equipment as needed. However, PVA has one 
request. We would like to work with the Deputy Under Secretary of 
Defense for Environment and Installations on streamlining the 
procedures for adaptive equipment donations to military installations. 
A uniformed set of approved procedures accepted by each service branch 
would be extremely helpful. It is essential that the Disabled 
Sportsman's Access Act be reauthorized as you consider the broader 
reauthorization of the Sikes Act.
    In closing, PVA would like to thank those in Congress who have 
support this historic law. As we all know, thousands of our military 
men and women are around the world going ``in harm's way'' defending 
our way of life. For those who will pay a heavy price for our freedom 
and come home to live with that sacrifice everyday, the Disabled 
Sportsmen's Access Act and the opportunities it provides should be 
there for them. Representative Duke Cunningham said it best with his 
comment on the DSAA: ``This is just one small thing we can give back to 
those who gave so much for their country.''
    This concludes my statement, on behalf of the Paralyzed Veterans of 
America, I again thank you for this opportunity to testify about the 
success and promise of the Disabled Sportsman's Access Act. I will 
please to respond to any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Colonel Deal.
    Mr. Meyer?

           STATEMENT OF DAN MEYER, GENERAL COUNSEL, 
       PUBLIC EMPLOYEES FOR ENVIRONMENTAL RESPONSIBILITY

    Mr. Meyer. Thank you, Mr. Chairman. I am Dan Meyer, the 
general counsel at Public Employees for Environmental 
Responsibility. Thank you for the opportunity to present to the 
Committee this morning.
    My position offers me a unique opportunity, a unique 
perspective on the matter before you, as far as the Sikes Act 
is concerned. I am a veteran, and a labor and environmental 
attorney, so all of these issues mix on my desk on a daily 
basis. I am a former Naval officer, I was in Desert Storm, and 
I am wearing my Southwest Asia service pin today as a 
celebration of the work we completed or are about to complete 
in Baghdad right now.
    PEER is a not-for-profit, based here in Washington, that 
provides services to Federal employees, State employees, and 
municipal employees who do environmental work. One of our 
subchapters, Military PEER, assists those stewards of the DOD 
lands when they are confronted with ethical challenges on the 
job.
    One of my lead concerns, as mentioned in my written 
testimony, is that in addition to all of the work I do in other 
Federal agencies, the Department of Defense is the largest 
single block of time commitment in my docket. Of the roughly 33 
cases I am handling, 11 handle DOD personnel with outstanding 
whistleblower or grievance matters related to their management 
of environmental natural resources issues on the DOD lands. So 
that is 11 cases with DOD. That compares with three I have 
right now with the Park Service, three with individual States, 
one with USAID, and only one with EPA, which has an agency with 
a wholly environmental mission.
    I think, and my written testimony is pretty clear on this, 
the time has come to address the issue of the false dichotomy 
between readiness and environmental compliance. I think it is a 
part of the debate that we need to move beyond. I think, as 
both then-Secretary Cheney mentioned in the late 1980's/early 
1990's, and as former Secretary of Defense Perry has also been 
on record discussing, the environment is a security issue in 
and of itself.
    The INRMP process in the Sikes Act, as it is set up, is an 
excellent template to teach our Defense Department leadership 
how to incorporate the environment into their daily 
decisionmaking routine. It goes beyond preserving fish and 
wildlife and protecting our natural resources because it 
teaches a respect for environmental components as they affect 
national security.
    Moving into the INRMP process, I think what we need to 
understand is that, as it is set up right now, obligations 
under the ESA, the MMPA, and other environmental statutes that 
are hooked budgetwise to individual components in the INRMPs, 
give the Sikes Act life.
    So, without independent funding for the Sikes Act, the 
folks on the ground have been able to find obligations under 
the current environmental statutes, the ones they want to 
exempt themselves from, and they have tied those to the INRMPs 
to get funding for the INRMP process. The most successful 
INRMPs to do this were at Yakima Training Center in Washington 
State. The Fort Stewart and the Fort Bragg INRMPs accomplished 
this, to some extent, as well.
    To see how the environment can work in tandem with 
excellent military performance, look at the U.S. Forces Command 
under General Ellis. These were the kids who went out and took 
the bridgehead at An Nasiryah last month, and one of the most 
progressive INRMPs right now in the Army is coming out of U.S. 
Forces Command. So the two can run in tandem quite well.
    I would list three failures within the current statutory 
regime.
    First, there is no mechanism to compel compliance. Second, 
there is a lack of protection for military stewards if they run 
into an ethical problem on the job about whether there is a 
violation of an environmental statute. Third, right now there 
is no playing field to understand the issue of outsourcing and 
how it is going to affect these jobs.
    I am submitting for the record our survey from 2001 of 
Natural Resources personnel and the Department of Defense.
    [NOTE: The 2001 survey submitted for the record has been 
retained in the Committee's official files.]
    Mr. Meyer. One-third of those individuals surveyed 
indicated that at some point in their professional career, they 
have been asked to overlook actual violations of the 
environmental statutes, and that is a very important number to 
keep in mind. If you add a contractor to that equation, a 
contractor who wants that contract renewed on an annual basis, 
I think you are going to set up an equation where violations 
will be overlooked on a regular basis.
    The solutions: I would like the Subcommittee to look at 
providing an enforcement clause to the act, providing a 
whistleblower protection clause to the Act to help those 
employees who find themselves in an ethical challenge, and to 
also understand that the Sikes Act is now set up as an 
excellent platform to instill an environmental ethic in our 
war-fighters.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Meyer follows:]

               Statement of Dan Meyer, General Counsel, 
      Public Employees for Environmental Responsibility (``PEER'')

    H.R. 1497, a bill to reauthorize Title I of the Sikes Act. Under P. 
L. 105-85, the Department of Defense is required to complete a 
comprehensive Integrated Natural Resource Management Plan (INRMP) for 
each of its installations. Enacted in 1960, this law has been extended 
a number of times with the current authorization of appropriations 
expiring on September 30, 2003.
    On March 27, 2003, Chairman Richard Pombo introduced the Sikes Act 
Reauthorization Act of 2003. This measure will extend until September 
30, 2008, the authorization of appropriations for Title I of the Sikes 
Act that involves all of the components of wildlife conservation on 
military lands. The authorization is extended at its current level that 
provides up to $1.5 million each year to the Department of Defense and 
$3 million to the Department of the Interior.
    PEER thanks the Chair and Members of the Subcommittee for the 
opportunity to testify at this important juncture in Federal 
environmental and merit system law.
Twin Components of the Common Defense: National and Environmental 
        Security
    Good morning. I am Dan Meyer, General Counsel at Public Employees 
for Environmental Responsibility (``PEER''). I am wearing my Southwest 
Asia Service lapel pin today in support of our forces: the soldiers, 
sailors, aircrews and marines that will return from the current war--we 
hope--to a clean and safe environment in which they can raise their 
families and heal their wounds, physical and psychological.
    Introduction. Twelve (12) years ago I was honorably discharged from 
the United States Navy as an unrestricted Officer of the Line 
(Lieutenant, U.S.N.) following Desert Storm and four (4) of the most 
rewarding years of my professional career. While onboard the battleship 
IOWA (BB-61), I served as the Turret One Officer and took that Division 
to a world record in naval gunnery at Vieques Island, Puerto Rico 
(1989). Three (3) months later I was required to lead that same crew 
through the worst peacetime accident in the history of the fleet, an 
equipment failure that took the lives of forty-seven (47) sailors, and 
our comrades, in an adjacent gun turret.
    My next duty assignment was to the flagship of the Commander, 
Middle East Force, forward deployed in the Emirate of Bahrain. My year 
onboard the USS LASALLE (AGF-03) was even more challenging and 
character building, in the best tradition of serving one's nation. The 
``Sparks'' in my ``Radio Shack'' broke all fleet records for handling 
message traffic, and did so for two (2) flag staffs as well as our own 
ship. We were first in the fight during the incident at Nakihlu Island, 
and we relieved the USS TRIPOLI (LPH-10) when it hit an Iraqi mine off 
Kuwait. LASALLE later liberated the port of Mina Ah'Shubayh, clearing 
free Kuwait's first safe access to the sea.
    Public Employees for Environmental Responsibility (PEER). Serving 
the nation under arms gives one a unique perspective on the interchange 
between environmental and national security, a balance best measured by 
the Sikes Act of 1960, as amended. The Sikes Act legislation is the 
cornerstone of my clients' daily work.
    PEER is a not-for-profit incorporated in Washington, D.C. PEER 
assists state, Federal and municipal employees with the legal 
challenges arising on the job, notably when they are asked to take an 
action in violation of rule, law or regulation; an action of gross 
waste and mismanagement; or an action constituting abuse of authority. 
PEER operates a network of ten (10) field offices around the country.
    In addition, PEER works extensively on behalf of civilian natural 
and cultural resource specialists employed by Department of Defense 
agencies. Most of PEER's members in need of legal services work in 
areas where the nation's environmental resources are most endangered, 
including the ``Defense lands'' subject to the provisions of the Sikes 
Act. We also serve members in agencies that consult with the Defense 
Department to ensure its own environmental compliance, most notably the 
excellent professionals at the U.S. Fish & Wildlife Service (USFWS) and 
the National Marine Fisheries Service (NMFS).
    The standards you write into the environmental statutes are the 
stars my clients steer by.
    Working through PEER with Federal employees serving in all 
communities of the U.S. Armed Services, the U.S. Fish & Wildlife 
Service, and the National Marine Fisheries Management Service, I have 
noted the following regarding the Sikes Act.
    Readiness and Environmental Compliance, Paired. There is a false 
dichotomy or distinction being made by the Pentagon between 
``Readiness'' and ``Environmental Compliance''. My former service in 
the Navy and my current legal practice allows me to witness the 
incredible professionalism of the Department of Defense's environmental 
managers and their staff. It is a professionalism that mirrors the same 
standards of performance exhibited by our fighting men and women: they 
are one seamless whole, from the point of the sword to its pommel. As 
such, the remarks you are hearing from others today underscore a false 
dichotomy or division between readiness and environmental compliance. 
The two (2) actually go hand-in-hand. Our common defense has two (2) 
components: national security and environmental security. To sacrifice 
one is to diminish the other.
    In pursuit of national security, the Sikes Act and other 
environmental statutes inculcate an understanding of the environment in 
our war fighters, so that they understand the impact of war fighting on 
the environment that sustains their men. In addition, the same statutes 
serve as benchmarks to define, in part, what we are defending. In 
pursuit of such ``environmental security'', we recognize that it does 
no good to win against an adversary in the Near East if--in training to 
do so--we are adversely wasting the health, safety and welfare of our 
citizens at home. These citizens would include those living closest to 
our Defense lands: the families of the soldiers, sailors, aircrews and 
marines you have been watching on the television for the past few 
weeks. Only a corrupted Republic would forego the draft, rely on 
volunteers, and house those volunteers in a degraded environment 
reminiscent of Love Canal when they return home from the front.
Problems with the Sikes Act
    In its execution of the mandate you established through the Sikes 
Act, the Department of Defense has faced a tremendous hurdle. As its 
inventory of natural resource assets and needs grows, the individual 
Services' capacity to protect wildlife is diminishing. We are facing a 
statutory crisis. The law is clear but the will to enforce it within 
the U.S. Government is fleeting. Before renewing or making substantive 
changes to the Sikes Act, one must also understand the Act's role 
through other environmental statutes--notably those from which the 
Defense Department currently seeks to be exempted. It is also helpful 
to understand the flow of Federal funds--or lack thereof--which 
determines how successfully the Act is executed. The Department of 
Defense formerly funded many of its Sikes Act requirements through the 
proceeds of ``commercial activities'' on Defense lands, such as 
timbering and farming. That is now a disfavored practice, and neither 
the Congress nor the Department has thought through the transition of 
that financial requirement to a new funding source.
    Roughly ninety percent (90%) of the Department of Defense 
facilities now have Integrated Natural Resource Management Plans 
(INRMPs). The depth and quality of these plans varies greatly. 
Ironically, the most highly regarded plans are those written for 
facilities implemented, in part, by a Federal employee who was 
retaliated against for--among other things--having implemented the very 
INRMPs that are so successful. His case is now before the U.S. Court of 
Appeals for the Federal Circuit because the Federal judiciary is not 
giving effect to the Whistleblower Protection Act of 1989 in a manner 
that you, the Congress, intended.
    Facilities with five (5) or more acres of Defense land, presence of 
an endangered species, or a minimum of one hundred (100) acres of land 
under commercial production generally require an INRMP. The general 
perception is that the two (2) most effective INRMPs in the country are 
those implementing the Sikes Act at the Yakima Training Center (YTC) 
and at Forts Bragg and Stewart. Many of the professionals who 
participate in these plans are veterans. They are former war fighters 
who understand that we are protecting our way of life, and not just 
playing games on the battlefield. The source of the Yakima, Bragg and 
Stewart excellence in planning is the U.S. Army Forces Command 
(FORSCOM) under the command of General Larry P. Ellis, U.S.A. General 
Ellis' men of the First Battalion, Third Aviation Regiment recently 
secured the Eurphrates bridgehead at An Nasiryah for the United States 
Marine Corps in southern Iraq. Those are the same Marine Units for whom 
the flagship LASALLE cleared mines off of Kuwait in 1991, allowing the 
battleships WISCONSIN (BB-64) and MISSOURI (BB-63) to conduct Naval 
Gunfire Support during the coastal run to Kuwait City.
    The Yakima, Bragg and Stewart INRMPs are excellent models, and you 
should have the Defense Department produce them for review by your 
staffs. The Yakima INRMP was first drafted in 1996 and was revised in 
2001. It was one of the first plans to integrate both Natural Resource 
and Cultural Resource requirements. Congress played a prominent role in 
the formation of the Yakima INRMP. The Yakima expansion of 
environmental compliance to include the National Historic Preservation 
Act of 1966 (NHPA) is a credit to the U.S. Department of the Army. The 
Bragg and Stewart INRMPs are products of excellence for another reason: 
they reveal the necessary connection between the Sikes Act and other 
environmental statutes from which other witnesses are asking you to 
exempt the Defense Department.
    The Congress has provided no funding mechanism within the Sikes 
Act; it is a law with no means of execution without funding derived 
from the other environmental statutes. To properly implement the law, 
farsighted officials within the U.S. Department of the Army aligned the 
Environmental Program Report (EPR)--which drives funding of 
environmental compliance--with specific INRMP components in the Forts 
Stewart and Bragg Plans. Each ``A106''--an individual budget entry--
approved to meet a requirement of the Endangered Species Act or other 
environmental statute is matched in the EPR to a component in the 
INRMP. Take away the Defense Department's requirement to abide by the 
other environmental statutes, and the Sikes Act becomes all statement, 
no force.
    So the experiences at Yakima, Bragg and Stewart offer a point of 
comparison from which to assess the weaknesses of the Sikes Act:
    No Mechanism to Compel Compliance. Environmental management under 
the Sikes Act is, essentially, a voluntary self-regulating system. 
Lacking specific funding and a timely mechanism for feedback and 
external review, INRMPs cannot substitute for other acts of assessment, 
review and compliance under Federal law. Until remedied, INRMPs are not 
appropriate replacements for civilian resource management laws.
    No Protection for Military Stewards of Natural and Cultural 
Resources. The second weakness vitiating the effectiveness of the Sikes 
Act is the lack of protection for the professionals charged with its 
implementation. The Department of Defense extols its stewardship, but 
mistreats its stewards. This lack of protection falls into two distinct 
but overlapping zones. First is the failure of the Whistleblower 
Protection Act of 1989 to provide adequate coverage for the Department 
of Defense staff managing the environment. Second is the looming threat 
of job loss through replacement by private, paid consultants.
    Professional Retaliation. Department of Defense natural and 
cultural resource specialists provide the single biggest source of 
whistleblower complaints in my non-profit practice portfolio. Fully one 
third (1/3) of my docket of personnel cases at PEER consist of civilian 
Department of Defense specialists. In other words, the Department of 
Defense produces more environmental whistleblower challenges than any 
other agency. That is more challenges than even agencies such as the 
Environmental Protection Agency, whose administrative mission is 
dedicated solely to environmental issues.
    These cases come to me when professionals face ethical crises on 
the job. Problems often arise over how to implement the Sikes Act or 
one of the environmental statutes. Recent decisions by the United 
States Court of Appeals for the Federal Circuit strip legal protection 
from employees who raise problems within the scope of their duties. 
These decisions mean that Defense specialists can be targeted for 
retaliation simply because they are doing their jobs--or doing their 
jobs too well.
    Outsourcing. The Department of Defense has stated that it intends 
to outsource five hundred (500) of the roughly eight hundred (800) 
environmental stewardship positions within the Department. Under Part 
32, Code of Federal Regulations, Section 169, such an action by Deputy 
Under Secretary Raymond Dubois would be a violation of law. See 32 
C.F.R. Sec. 169 (``the management and conservation of natural resources 
under DoD stewardship is an inherently governmental function''). This 
Code provision is actionable in Federal court, and my hunch is that the 
Defense Department will move to strike this provision of the Code now 
that the courts have given life to the words. Unless the language is 
transferred to the Sikes Act and made the voice of the Congress, 
another set of environmental protections will have been removed by this 
Administration.
    The Bush Administration's drive to privatized Federal employment 
presents a huge challenge to effectively implementing the Sikes Act and 
the other environmental statutes. The perception in the field is that 
the Pentagon regards every decision outside the walls of the Pentagon 
as non-essential government functions, and therefore open to 
privatization. The traditional view was that functions such as 
surveying, monitoring and timber marking were open to privatization 
because they were ministerial, and lack a great deal of discretion. 
They were also acts that a Federal employee with discretion would 
supervise. This Administration wants to privatize all decisions made 
beyond the banks of the Potomac River, including the essential 
government functions of environmental assessment, review and 
compliance.
    To understand the coming collision between privatization and the 
Sikes Act requirements, one must understand the conflict within the 
Defense establishment between the ``Navy Model'' and the ``Army Model'' 
of environmental assessment, review and compliance. The Army maintains 
highly professional environmental field operations, situated in and 
around the facilities under review. It is a decentralized model placing 
the decision-making Federal employee close to the resource. While the 
Navy has some exceptional environmental resource managers in the field, 
it has never decentralized its decision-making using the same model as 
the Army. For the most part, substantive decisions regarding the 
Endangered Species Act are made between the military stewards and their 
counterparts in the regional offices of the U.S. Fish & Wildlife 
Service (USFWS). By contrast, the regional National Marine Fisheries 
Service (NMFS) offices are not consulted to the same professional level 
on matters related to the Marine Mammal Protection Act. Those matters 
are largely decided by a cadre of Navy officials within the Pentagon.
    The conflict between these two models--the ``Army'' model and the 
``Navy'' model--must be understood before one can grasp the threat that 
privatization poses to effective execution of the Sikes Act. The 
Department of the Navy initiated the current statutory exemptions 
debate and also has less experience with INRMPs. The Navy's centralized 
decision-making process has allowed it to ``not see'' resources which 
would require assessment, review and compliance decision-making. The 
damage to Chinook Salmon habitat in Puget Sound and the bombing of a 
North Atlantic Right Whale off New England--both actions lacking 
environmental assessment--are the genres of failure the ``Navy Model'' 
produces. The ``Navy Model'' would change very little following 
privatization because little is being done in the way of environmental 
assessment, review and compliance in the field. However the ``Army 
Model''--which may produce a greater level of environmental 
compliance--would be destroyed by privatization. The people performing 
those essential government functions are the folks employed at the 
regional level. By privatizing those functions, a contractor will 
complete a task that is then subjected to an inherent conflict of 
interest: a private corporation must make a critical decision required 
to maintain fidelity to the law, and they must do so while 
contemplating whether its contract will be renewed next year by the 
base commander. To properly implement the current Sikes Act, and 
certainly to implement a stronger Sikes Act, Congress must block 
attempts to outsource the entire environmental staffs of specific 
Defense facilities.
    Of particular concern are the following:
    <bullet> LContracted natural resource people will be less likely to 
confront resource problems. If these positions are not governmental, 
then it is much easier to disregard their findings or just ``hire 
another contractor''. Merit System protections provide integrity and 
credibility to the execution of the law.
    <bullet> LThe motives of contractors are profit and obtaining the 
next contract. Natural resource management is a long-term commitment. 
Contractors are conditioned by the market to focus on the short-term 
result.
    <bullet> LIn cases that have been reported to PEER, the Department 
of Defense's motivation for obtaining private contractors has been to 
circumvent or obviate resource protection opinions from its own staff 
that have been deemed inconvenient or troublesome.
    PEER is currently litigating against the natural resource 
contracting practices of the U.S. Department of the Air Force at 
Edwards AFB, California. We argue that Edward's management practices 
violate the prohibitions in the Sikes Act regarding contracting out 
inherently governmental natural and cultural resource management 
functions. The U.S. District Court for the Central District of 
California has just ruled against motions by the Air Force to dismiss 
the suit. In a ruling on March 31, 2003, Judge Margaret M. Morrow found 
that the Sikes Act restrictions on contracting out resource management 
is neither ``suggestive'' nor provides ``guidance''; rather, it is law 
as it is decided in our courts. As a result of that ruling, our lawsuit 
will proceed to trial this summer.
    Command Hostility to Resource Protection. The commanders of 
facilities with jurisdiction over Defense lands often lack training in 
natural resource protection. There are no career incentives for 
environmental compliance, and a diligent ``Green'' commander would not 
be seen as a ``member of the club'' if he was especially rigorous in 
the enforcement of our nation's environmental laws. That is not to say 
they do not exist; I have received at least two (2) calls on behalf of 
Flag Officers over the past twelve (12) months, thanking PEER for it 
efforts. In the Fleet we called such compliments ``Bravo Zulus'' or 
``BZs''. These officials concerns centered on the political influence 
of regulated corporations in the environmental decision-making at their 
installations under the supervision of the Deputy Under Secretary of 
Defense for Installations and the Environment. But such comments could 
never be made publicly.
    Two (2) examples of this stand out within the experience of the 
United States Navy. Last year PEER highlighted two (2) practices--both 
including the use of low-level munitions--that were impacting the 
habitat of endangered species. In one case, Brunswick Naval Air Station 
disregarded advisories about right whale migration and conducted aerial 
bombardment practice directly in the path of migrating whales. The 
right whale is one of the most endangered species on the planet, and 
American taxpayers already spend millions of dollars to aid in that 
species' recovery. Shortly after that exercise took place, the headless 
carcass of a right whale calf was discovered.
    The other incident involved the repeated detonation of munitions in 
Puget Sound, the nation's second largest estuary, and a vital habitat 
for an array of protected marine mammals and fish including Endangered 
Species Act listed Puget Sound Chinook salmon and Hood Canal summer run 
chum and their prey, which rely on habitats within the training areas. 
The marine waters of Puget Sound are designated as Essential Fish 
Habitat under the 1996 Sustainable Fisheries Act. These activities had 
been ongoing for many years, and no environmental assessment was 
conducted. The culture had become so relaxed that the commanders in 
question did not even think they were violating the law.
    This lack of command training is exacerbated by the frequency of 
command changes. With low environmental staffing levels, the prospect 
of contracting out discouraging new recruits, and a new commanding 
officer every couple of years, there is no consistency in facility 
management.
    Wisdom from the Field. In 2001, PEER conducted a survey of natural 
resource managers serving on Defense lands. It was the first national 
survey of civilian specialists working on military bases across the 
United States.
    <bullet> LMore than four (4) out of five (5) civilian specialists 
reported that the natural resource challenges on their bases, ranging 
from invasion of exotic plants to development and recreation pressures, 
are on the rise. Compounding this threat is the unwillingness of base 
commanders to value the natural resources within their custody.
    <bullet> LNearly one third (1/3) of all respondents reported they 
``have been directed to overlook resource violations or circumvent 
resource laws and regulations'' while only one fourth (1/4) believe 
that ``violations of resource regulations create negative career 
consequences for responsible officers.''
    <bullet> LLess than half (< +) of specialists feel that resource 
protection ``is a high priority with the current installation 
command.''--and--
    <bullet> LOne half (+) of specialists cite frequent changes of 
command as disrupting the base's resource protection efforts.
    One civilian specialist described the prevailing attitude of the 
officer corps as an ``apparent disrespect for DoD and other regulations 
and laws related to habitat and wildlife protection...Keeping the 
``grass well mowed'' is always more important than any consideration of 
wildlife that may reside in the grass and depend upon it for 
survival.'' Another respondent supplied an example: ``Another equally 
challenging problem is our BASH [Bird Airstrike Hazards Around 
Airfields] paranoia. If allowable, our command would eliminate all 
birds from our state.'' According to the specialists who implement the 
Sikes Act, military commanders too often regard laws protecting natural 
resources as a nuisance.
Solutions
    In the re-authorization of the Sikes Act, PEER would urge Congress 
to also examine the following:
    1. LMake the Sikes Act enforceable. Unless there is some mechanism 
for external review of compliance, execution of the Sikes Act will 
remain uneven. Moreover, without such a mechanism and a demonstrated 
track record of its efficacy, any notion that the Sikes Act could serve 
as a substitute for natural and cultural resource laws of general 
application would be ill advised.
    2. LProtect Professionals Implementing the Sikes Act. The 
Whistleblower Protection Act of 1989 should be amended to undo the 
mischief created by the U.S. Court of Appeals for the Federal Circuit 
in the Huffman case two years ago. Huffman v. Office of Personnel 
Management, 263 F.3d 1341 (Fed. Circ. 2001). All employee disclosures 
to further the enforcement or administration of the Sikes Act should be 
classified as ``protected disclosures'' for purposes of civil service 
law. With respect to the threat posed by outsourcing, Congress could 
reaffirm its no-contracting policy. Otherwise litigation, turning on a 
question of Congressional intent, will be needed. This becomes doubly 
important if the Department is successful in passing amendments to the 
Code allowing them to outsource positions legally. The duties of some 
of these personnel may be delegated to the States. When this is done, 
the Whistleblower Protection Act of 1989 and the whistleblower 
provisions of the environmental statutes cannot protect State employees 
enforcing Federal laws. See Rhode Island v. United States, 304 F.3d 31 
(1st Cir. 2003).
    3. LInstill Environmental Responsibility Within the Officer Corps. 
This last reform is central to my heart on this matter. Long before I 
considered myself an environmentalist, I was a warrior--and my work 
still exhibits the training I received in the Navy. In that same way, 
we need to inculcate the environmental ethic within our warriors as a 
component of readiness--not only because we value the resources the 
Sikes Act protects, but also because we value our soldiers, sailors, 
aircrews and marines.
    When I see images of the chemical warfare equipment and protective 
gear worn by our fighters in Iraq, I am saddened by our lack of 
preparedness--or readiness--against environmental hazards during Desert 
Storm. The Gulf War Syndrome was a product of the way in which warriors 
think, or fail to think, about the world around us--what we inject into 
it, and what we take out of it. On the battleship IOWA, we sent damage 
control units into cyanide-saturated spaces without protective gear; 
again a failure of environmental security. If you neglect the 
environmental security advanced by the Sikes Act and other 
environmental statutes, you will ultimately comprise the effectiveness 
of the fighting force maintaining your national security.
    Conclusion. It is time to end the false dichotomy or division 
between ``readiness'' and ``environmental compliance''. As stated by 
former Defense Secretary William Perry:
        ``Protecting our national security in the post-Cold War era 
        includes integrating the best environmental practices into all 
        Department of Defense activities.''
    Environmental compliance is an indispensable element of readiness. 
A base commander trained to think in terms of rigorous INRMPs and 
skillfully prepared by his or her career Federal environmental staff 
will begin to think about the world around him as he plans for war. The 
INRMP encourages a process of thinking, a way of approaching the 
question of how the fighting unit impacts the Earth, and ultimately, 
the warrior who derives fighting sustenance from the Earth. A war 
commander trained in such disciplines, for instance, will think twice 
before ordering the haphazard destruction of a chemical weapons depot, 
or how he exposes his fighters to depleted uranium munitions or burning 
petroleum fumes.
    The Sikes Act relates specifically to the management of natural 
resources, but it is the template for how we manage war-making and its 
environmental impact. Machines increasingly win our wars, placing the 
responsibility for the common defense farther from the average citizen. 
The soldiers, sailors, aircrews and marines who still fight our 
battles, however, do so under the belief that the nation will address 
the adverse effects of those wars on both themselves and their 
families. Most of us are familiar with the idea of an adverse impact 
beyond the familiar physical or psychological damage of warfare. The 
effects of Agent Orange and the Defense Department's nuclear testing 
have alerted us all to the fact that our neighbors and their sons may 
be paying more for our defense than we initially understand a war to 
cost. These adverse impacts need to be addressed not only because we 
are a caring nation, but also because we rely on volunteers. Who will 
volunteer for military service if the handling of the ``Agent Orange 
phenomenon'' is the model currently used by the Pentagon?
    A decade ago, our generals and admirals failed to understand the 
environmental security impact of both the detonation of the Iraqi 
chemical weapons depot at Khismayah (1991), and the impacts of Kuwait's 
burning oil fields on our warriors. Three decades ago, the same mistake 
was made with respect to defoliants in South East Asia. Five decades 
ago, the same mistakes were made with radiation testing on our 
servicemen and women. These types of failures undermine the integrity 
of our fighting force, raising suspicions within the enlisted ranks 
that the military leadership, defense contractors, and their 
Congressional allies will avoid the costs of war by making our soldiers 
and their families bear the same. Your integrity and the integrity of 
the process by which Capitol Hill makes national and environmental 
security decisions are as much at stake here as is the health of the 
American environment.
    Come back to the Sikes Act: a statutory regime that teaches our 
warriors to think of the environment as part of both their war fighting 
terrain and the resource they are defending, will change the way we 
approach environmental challenges in the field. The path to prevent 
future Desert Storm Syndromes travels by the nest of the Red-Cockaded 
Woodpecker and its endangered peers.
    Remember, also, that the Defense lands are not the property of any 
one agency so much as they are assets entrusted by the people of the 
United States with a particular public instrumentality. The air, soil 
and water of those lands are no less part of our national heritage than 
those of national parks and forests. It is an institutional failure as 
well as a threat to public health and safety when groundwater is 
contaminated by Defense-related activities, or when already threatened 
wildlife is needlessly jeopardized. Ultimately, we ought to understand 
that we are not engaged in this season of war for the sake of making 
war, but rather to safeguard and protect a way of living in this 
country, a way of living dependent on the Sikes Act and the resources 
it protects.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Meyer. We should have had you 
on the first panel. We will have to do that the next time.
    [Laughter.]
    Mr. Gilchrest. Could you comment, you have 11 cases with 
DOD you mentioned. What are those 11 cases? Does it have to do 
with enforcement or whistleblowers or what are those case?
    Mr. Meyer. To the extent that I can give out details, some 
of those are currently intakes which have not been moved into 
the public record, I have to be careful about the details I 
give out because they are my clients.
    The two most important cases are right now in front of the 
U.S. Court of Appeals for the Federal Circuit. One involves the 
Army and the Red-Cockaded Woodpecker down in the Southeast part 
of the country. The other involves PCBs in the soil at NTCS 
Cutler in Maine.
    Mr. Gilchrest. So you are saying--I am not sure I 
understand--these cases are as a result of a Federal employee 
reporting that there are some environmental violations.
    Mr. Meyer. In the case of the Red-Cockaded Woodpecker, my 
client was involved with the burn ratio that was required at 
Fort Stewart in order to accommodate the habitat of the Red-
Cockaded Woodpecker.
    Mr. Gilchrest. And this has to do with the INRMP plans.
    Mr. Meyer. And working from the INRMP, and working in 
consultation with U.S. Fish and Wildlife Service, my client 
made a determination that a certain amount of acreage under the 
Fish and Wildlife Service's opinion, its biological opinion, 
had to be burned at Fort Stewart, and it set up a challenge, 
through the Army's inspection process, when they weren't 
achieving that burn rate.
    As he was helping the inspectors to go through the books, 
there was a confrontation over whether the burn rate had been 
achieved, how it had been achieved and how much of an issue it 
was that they had not met the Fish and Wildlife Service's 
obligations.
    In that, he received a 2-day suspension, a small matter. 
MSPB was not happy that I brought to them a 2-day suspension. 
But for a Federal employee who is a retired lieutenant 
commander and a formal Naval aviator, that was a huge offense 
to him, and I said, ``You know Burt, you have a great case. We 
will take it, and we will test the law on it.''
    In the case of NTCS Cutler, there was a determination that 
there was not a need for an environmental assessment. Then my 
client figured out that there were PCBs in the paint, tried to 
push the issue of an environmental assessment through the 
command, and was retaliated against in that context. Then they 
had to go back and pay off a contractor. There was about 
$100,000 lost because they couldn't do that work. They had to 
go back and reschedule the job and take care of the PCB problem 
that had moved off the towers and was now in the soil itself.
    Mr. Gilchrest. So you feel those 11 cases, in particular 
those two that you just mentioned to us, would benefit from an 
enforcement clause, a whistleblower protection and--go ahead.
    Mr. Meyer. Yes, sir. I think there are three different 
needs there. An enforcement clause is necessary. If you lose 
the enforcement clauses in the environmental statutes, there 
needs to be some provision within the Sikes Act to make up for 
that.
    Mr. Gilchrest. Do you think, looking at this from an 
overall perspective and all military bases that are trying to 
implement this new Integrated Plan System with the States, with 
Fish and Wildlife and with DOD, would you say, overall, it is 
working well or are there particular places and are those 
particular places maybe personality problems with the 
implementation of these good ecosystem plans?
    Mr. Meyer. I think it is working well, but in working well, 
it is putting an incredible amount of pressure on the Natural 
Resources managers on the bases, who are now becoming the 
negotiators on the INRMPs between the Federal agencies that are 
consulting with the Defense Department.
    Mr. Gilchrest. And you would have some concern about 
outsourcing some of this work?
    Mr. Meyer. A very large concern about outsourcing, given 
the commercial incentives behind the contracting process.
    Mr. Gilchrest. I see. Thank you very much, Mr. Meyer, and 
we will stay close to you, as we go through this 
reauthorization process, for your input.
    Colonel Deal and Mr. Rurka, Quantico seems to be the poster 
child, the great example of your work, although I have to tell 
you I was 10 months at Quantico, and I don't think I ever saw 
any wildlife, other than the young ROTC people or I forget now 
what we called them, the young lieutenants running toward us, 
and we would either shoot blanks at them or, depending on the 
weather, we would throw snowballs at them.
    [Laughter.]
    Mr. Gilchrest. How many bases around the country have 
something similar to what you have established at Quantico?
    Colonel Deal. I couldn't answer that, and that is a 
question I would like to ask. The law has been in establishment 
since 1998. We, at PVA, know that they are extremely busy at 
those bases, and when we show up, we are there to help solve 
the equation. That is why the adaptive equipment is so 
important.
    They are trying. That is why I said in my statements 
earlier we are here to help them establish those procedures. We 
are a reservoir of how to do it right. Believe me, when we 
started at Quantico, there were some rather humorous moments 
when we were trying to get folks in wheelchairs out into the 
rolling hills of Quantico to deer hunt, but we solved it, and 
we did it safely.
    Where the rubber meets the road, I just got back from NAS 
Meridian. We found a spring turkey hunt with Congressman 
Pickering and one of our disabled vets for a Mossy Oak Hunting 
the Country--successful show. They are doing a great job down 
there, but a lot of it is they say, ``Tell us how to do it,'' 
and that is what we are there for.
    I also think that, at their level, they have worked very 
hard on lots of issues, and they need all of the help they can 
get to implement it.
    All of the bases that we listed I think are the only bases 
that we know of that have received adaptive equipment, and we 
did that. We sure would welcome some support from Safari Club 
International maybe down the road on that, and we have talked 
about that.
    A lot of them have programs, but it is not the quality 
program that we would like to see. If you have a fishing 
facility, are there rails? And we will supply the designs free 
if you want it.
    Taking someone deer hunting is not taking them out and 
saying, ``OK, get out of your vehicle, sit here in your chair 
looking at this field, while 45 people drive by going to the 
deep woods.'' That is the kind of issues, but that is all they 
can do. They don't have time to make it a--and that is what we 
are here to do. It will take time. Just give us the 
opportunity, and we will make it happen.
    Mr. Gilchrest. Certainly. Thank you very much, and we 
appreciate your dedication to this issue.
    I yield to the gentleman from New Jersey.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask Mr. Meyer a question. You heard--I think 
you were here earlier--did you hear the first panel?
    Mr. Meyer. Yes, sir.
    Mr. Pallone. And you heard the DOD representative say he is 
seeking to prevent the services from designating critical 
habitat on any land owned or controlled by DOD if the INRMP has 
been developed.
    And, of course, I expressed concerns about the adequacy of 
the INRMP, for two reasons; first, because the Sikes Act simply 
requires DOD to prepare INRMPs that protect wildlife to the 
extent appropriate, not necessarily the extent necessary to 
recover a threatened or endangered species and, second, because 
according to the Office of the Inspector General, Federal and 
State wildlife agencies have limited involvement in preparation 
of INRMP.
    So there may be cases where it is appropriate to exclude a 
base from critical habitat requirements, but I guess I just 
wanted to ask you if you believe that INRMP should be 
substituted for critical habitat designations no all military 
bases, which is I think what they are proposing.
    Mr. Meyer. I don't agree with the Defense Department's 
position on that. I think you actually have the great structure 
already together for a statutory pattern, and that is that 
Congress has identified specific environmental needs in those 
statutes, whether it is the Marine Mammals Protection Act, the 
Endangered Species Act or all of the hazardous waste acts. The 
INRMP should be looking at the requirements under those acts 
and the components of the INRMP should be following from those.
    So, in a way, it is almost like a pyramid effect, and what 
you have is your individual blocks on the bottom which are 
experiences over the last 40 or 50 years regarding the 
environment and what we now know is the impact on the 
environment. Then the INRMP can become the vehicle that the 
Defense Department moves forward and meets its obligations 
under those.
    Now, where you get this duality between the critical 
habitat designation and the INRMP and the Defense Department's 
difficulty in dealing with that, I really think what you are 
seeing is more pretext than it is what is going on, on the 
bottom.
    What is happening is it is a breakdown of the consultation 
process that Jim Connaughton is in charge of. I think CEQ has 
for many years, and this is a bipartisan failure, not developed 
the kind of teamwork between Federal agencies, so that the 
consultation is done early and there is a lot of time to deal 
with the problem. Because there is a delay, you end up with a 
crisis at the end, which then the Defense Department thinks is 
affecting its training.
    I think that if Congress wants to get to the issue of why 
people are stepping on each other's toes on the dance floor 
between critical habitat designation and INRMPs, they need to 
get to the heart of what is the problem with the consultation 
issue, and it is a very complicated issue, Congressman.
    I have had situations where, because one agency does not 
feel comfortable talking with the Defense Department, they will 
go through the Natural Resource manager on the base. So Fish 
and Wildlife will talk more with its contacts on the base than 
it will directly with the base and with the chain of command at 
the facility, in the same way, because the person on the base 
doesn't feel comfortable talking with a commander who is not 
pro environment, he will then have the issues raised through 
the Fish and Wildlife Service or through the National Marine 
Fisheries Service and come back to the base that way.
    The consultation process is very complicated. I don't think 
it is well-understood and I think part of that is making your 
job more difficult on sorting out critical habitat designation 
and INRMPs.
    Mr. Pallone. Well, I know you made some suggestions about 
how we might amend the Sikes Act. You talked about the 
enforcement clause, whistleblower protection. Did you want to 
say anything, in that regard, about what we just discussed in 
terms of this consultation process or anything else that you 
think we might do in clarifying or amending the act?
    Mr. Meyer. On enforcement, I would yield to Chester's group 
because I think NMFWA has a great understanding of where the 
Act needs to go.
    On the whistleblower protection provisions, which is our 
bread and butter at PEER, due to a decision that came out of 
the Federal Circuit of Appeals in 2001, it is very difficult 
for a Federal employee who stays within his or her chain of 
command by reporting up through the commander and is retaliated 
against in that situation, to receive protection.
    The Federal Circuit has set up a situation, under the WPA 
and all of the whistleblower clauses in the environmental 
statutes, that if you are a Federal employee, you only get 
protection if you go to the Office of Special Counsel or if you 
leak the information to the press. As a former military man, 
this horrified me when I figured out that you have more 
protection if you leak the information to the New York Times, 
than you do if you take the information to your base commander.
    So the only way we are going to get around that, until 
somebody gets on the U.S. Court of Appeals, is if Congress 
starts inserting into its statutes disciplined whistleblower 
protection language that circumvents the Huffman case or 
corrects the record in the Huffman case.
    And then the last position in here, which I think is very 
important, and I added late--it was a thought I had in the 
shower, actually, on Sunday morning--is that with the 
delegation agreement to the States, when you start moving 
Federal functions, to the States, whether it is law enforcement 
positions on the bases related to environmental violations or 
if you start moving review of environmental requirements to 
State agencies, there is this body of jurisprudence out of the 
Supreme Court, on the seminal line of cases, in which a State 
will be able to raise sovereign immunity any time a State 
employee, doing work for the Federal Government, sues the State 
for a whistleblower issue or matter.
    So, if you are going to turn over your functions to the 
States and the Defense Department has been thinking about that, 
I think you need to think through whether the States need to 
waive their sovereign immunity so that your whistleblower 
clauses still have effect.
    Those are the two technical parts of that.
    Mr. Pallone. That is very helpful. Thank you.
    I don't know if we have time, but I was going to ask Mr. 
Rurka a question. Well, first of all, where do you live, 
actually?
    Mr. Rurka. I live in Somerset, New Jersey, outside of 
Rutgers University.
    Mr. Pallone. So that is Franklin Township.
    Mr. Rurka. It is, exactly.
    Mr. Pallone. You are in my district.
    Mr. Rurka. I am. I am proud to see you doing such a great 
job here today.
    Mr. Pallone. Well, thank you. I don't know, maybe I 
shouldn't ask this question, now that you told me that.
    [Laughter.]
    Mr. Pallone. But I guess it is obvious from the testimony 
of the first panel, Mr. Rurka, that the DOD has been struggling 
with addressing the issue of encroachment on military lands in 
recent years, and they are seeking legislative relief from a 
number of acts, including ESA.
    I guess the question is, given the heightened alert that we 
have now in these times, where military readiness is placed at 
a premium, how do you propose to justify increased public 
access to military installations when the DOD finds 
encroachment a burden to readiness and training activities the 
way that they have said or the way that Mr. DuBois mentioned in 
the first panel?
    Mr. Rurka. There is certainly no easy solution to this, and 
we can appreciate the efforts of our military men and women 
today, and they need the training and everything else. But you 
are looking at vast tracts of property.
    I submit to you McGuire Air Force Base, we don't need the 
entire base. You have got millions and millions of acres. Would 
100 feet of a stream, with one dockage area with a railing, 
make a tremendous impact?
    Would 100 acres, out of 100,000 acres, impact dramatically 
what we are going to do with our men, women and service 
personnel? And I would submit to you, no, it would not.
    When I look at the problems of getting access, just a phone 
call to McGuire is a joke. I love our people, but no one knows 
about the program. If we could dedicate certain areas, and I 
have to refer to Colonel Deal, it is an area where you don't 
want 45 cars an hour going by. It is an area that is more 
isolated, that a person with a handicap could bring a mom, a 
dad, a brother, a partner, a hunting buddy, a fishing buddy and 
say, ``Hey, we have got access here. We are not sitting in a 
park being pushed around by whatever it might be. We can come 
here. We can enjoy a few hours, and we are not going to disturb 
anybody.''
    So we are not looking to encroach on anybody's terrain. We 
are not here to hurt our military personnel at all--just a 
little area.
    Mr. Pallone. Thank you. I appreciate it.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Ms. Bordallo?
    Ms. Bordallo. Thank you, Mr. Chairman.
    First, I would like to commend those persons working on 
programs for persons with disabilities. Most of my life I have 
devoted to working with programs that have to do with persons 
with disabilities, and both the Chair and the Ranking Member 
did touch on questions that I was going to ask.
    And you know we might keep in mind, when we are thinking of 
the disabled veterans, that after this war in Iraq, we will 
have probably a significant number. It will increase, 
certainly. And so we want to be able to keep on working for 
them and keep them always in the forefront.
    Our Chairman asked how many bases have initiated these 
programs, and you answered in the negative. Would you possibly 
have remembered if Guam was on that list?
    Colonel Deal. No, ma'am, I don't.
    Ms. Bordallo. I would like to ask, then, Mr. Chairman, if 
you could look into this, provide us with this list and provide 
it to the Chairman, if that is all right, Mr. Chairman.
    Another question I would like to ask is the accessibility 
for persons with disabilities on bases, generally, is it good?
    Mr. Rurka. If I could address that, and he will add to 
this.
    Ms. Bordallo. Yes.
    Mr. Rurka. We have members in every State of the Union and 
across the world. We are an international group. To my 
surprise, when chapters in various States make an effort to get 
onto a military base, we find ourselves with our hands tied. I 
am not going to say there aren't bases that do help, but I 
would say in most cases there is maybe a lack of knowledge of 
the program or an inability to set aside a small space for this 
effort, and it seems that we spin a lot of tires.
    So we go to the private sector, and the private sector 
embraces us with open arms. So we are finding that where we 
hoped to be welcomed on our bases, we have better access 
privately. Unfortunately, that is not access 52 weeks a year 
because it might be a farming operation, it might be where a 
number of issues come in.
    So, from my experience right now, I would say that we are 
not doing well in that area.
    Ms. Bordallo. But when you get onto the bases, is the 
accessibility there? Are they complying with the ADA Act?
    Mr. Rurka. Well, we have not had, other than McGuire Air 
Force Base, which has been pretty good in a small segment, but 
with all of the efforts going on now, things have sort of shut 
down a little bit. So we are saying that maybe we could have a 
person designated on each base to just address that issue, 
whether it be for photography, still video, fishing, whatever 
it might be. We are not looking at access to the entire base, 
just small areas of it.
    Ms. Bordallo. Colonel?
    Colonel Deal. The specific language of the Disabled 
Sportsmen's Access Act, there are three levels, and it says: 
First priority goes to disabled veterans, and then to 
dependents with disabilities and then all others.
    The other big issue, and having spent 24 years in Marine 
Corps security, you know, it is very difficult, if you are a 
civilian, to get on a base. Now, I can speak for Quantico.
    They did a survey down there for able-bodied hunters. More 
civilians hunted Quantico than the Marines did--open access, 
but that is Quantico--mostly because the Marines didn't have 
time to go hunting. All right? So it depends.
    But I agree, we are a reservoir. We could help solve that 
issue. But if I was a base commander and the law says, 
dependent upon operational commitments, I would be real 
hesitant about civilians coming on board. First of all, I am 
going to take care of my vets and then dependents. It can be 
worked out.
    Ms. Bordallo. So perhaps this would be the time, then, for 
you to look at future recommendations and provide us with 
legislation.
    Colonel Deal. Right.
    Ms. Bordallo. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Ms. Bordallo.
    I think that pretty much concludes the formal part of the 
hearing. I would like to continue, Mr. Pallone, and I, and the 
other members of this Subcommittee would like to continue to 
have a dialog with you on a number of aspects; certainly, how 
we can improve the Act with the disabilities situation. And 
some of the material that you sent up to the desk is just 
extraordinary, almost to the point where only in America can 
this kind of thing happen, and we would like to make other 
bases certainly more accessible, and using Quantico as the best 
example of how it can be done.
    We also appreciate, Mr. Martin and Mr. Meyer, your 
testimony, so that we can truly integrate the kind of best 
natural resource management, working through an ecosystem 
approach, and integrate the concepts of ESA and MMPA with the 
necessary training that is required and critical.
    So we appreciate your testimony this morning and look 
forward to our continued dialog.
    Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]

    [A statement submitted for the record by Hon. Felix P. 
Camacho, Governor, Territory of Guam, follows:]

        Statement of The Honorable Felix P. Camacho, Governor, 
                           Territory of Guam

    Guam would like to thank you for the invitation to provide oral 
testimony at the hearing on H.R. 1497 and regrets that travel logistics 
prevented a representative from being able to attend. Guam's 
perspective on H.R. 1497, the Sikes Act Reauthorization Act of 2003 in 
unique. Guam remains a strategic military location especially in these 
times of War with Iraq and the risks posed by North Korea.
    Ultimately we recommend the reauthorization supports allowing both 
primary goals of protecting natural resource and meeting the U.S. 
military mission to be achieved. The Government of Guam has had a 
collaborative relationship with the Department of Defense for over 30 
years and can show that it is this collaboration that has allowed the 
military mission to be met while maintaining prudent natural resource 
management. This is not to say there have not been disputed issues or 
disagreements on the suitability of both natural resource management 
needs and eligibility of selected military actions with respect to 
their impact on endangered species habitat. However, logic and 
commitment can find ways for these issues to coexist.
    Guam residents have always been and continue to be strong advocates 
of the U.S. military efforts. Having significant U.S. Air Force and 
U.S. Navy Bases that occupy roughly 30% of the island's land area as 
well as significant representation by the U.S. Coast Guard, U.S. 
Marines, U.S. Civil Engineering Battalion and Army and Air Force 
Reserve Units makes the Sikes Act an important management tool.
    The issue of endangered species further complicates this issue as 
many of Guam's native bird species have been extirpated, while quite a 
few others have been place at risk as a result of the introduced brown 
tree snake. This has resulted in significant Federal endangered species 
listing of Guam species and this triggers the critical habitat issue.
    Critical Habitat designation does not guarantee preservation of 
habitat and there are numerous examples of habitat being ``taken'' 
because the data presented was not sufficient to render a jeopardy 
opinion or no Federal action was proposed and therefore there is no 
legal oversight. Additionally, critical habitat designation does not 
assure funding to manage such areas and this has in many cases made the 
long term goal of species recovery unreachable. Some have said the ESA 
protects the habitat but this is only true if the species is still 
present. In Guam's case, much of the previously occupied habitat is 
uninhabited by these species but there is still hope that these areas 
can once again hold these species. If the land available to recover 
species falls below the definition of what is needed in the Federal 
recovery plan to have a sustainable population, then the species can 
never be delisted and this clearly needs to be everyone's goal.
    For this reason, the integrated natural resource management plan 
(INRMP) concept is the preferred approach with several considerations 
attached. This approach obligates the DOD landholder to commit to a 
natural resource management plan. They must commit funds and personnel 
to completing the plan and this is one of the primary failures of the 
critical habitat approach. The state fish and wildlife agencies must 
continue to have the ability to participate in the development and 
approval of the plan. This approach has also allowed management issues 
beyond ESA to be addressed. This also increases the likelihood of best 
management practices being applied that can avoid or minimize impacts 
while allowing the military mission to proceed. These plans are 
evolutionary documents and support adjustments being made as resources 
or missions change. It is critical in considering this approach that 
strong language is developed to hold the stakeholders to the agreement 
and to ensure that local stakeholders are entitled to participate in 
the development and approval of the strategy. This also requires that 
the protection intended to occur in critical habitat and the ESA are 
upheld in any alternative approach. In the case of DOD, their primary 
military mission is clear and it is critical that the reauthorization 
that it remain equally clear that DOD must uphold the ESA and critical 
habitat goals but that alternatives such as INRMPs can continue to be 
considered as substitutes.
    To do anything that would preclude either goal from being achieved 
would have tremendous negative impacts on either side. Exempting DOD 
from having to meet CH concerns in their INRMP would potentially 
obligate species to endangered listing for a lack of habit to meet 
recovery needs. To obligate CH without alternatives like INRMP 
substitution would potentially prevent critical operations or 
preparedness by DOD.
    This concept should be extended beyond DOD lands to local 
government or private lands. This should include safe harbor agreements 
or other alternatives as substitutes for critical habitat that provide 
better approaches to manage endangered species and associated critical 
habitat.
    The animals and plants know no political boundaries and the SIKES 
has a long history of ensuring proper management of natural resources 
on Federal lands and also provides strong support for local 
stakeholders to have legal standing in managing such Federal areas. 
These issues continue to be essential elements of the Act while 
alternatives to achieve these goals should be broadened.
    Thank you for the opportunity to comment and we look forward to 
continuing to work with your Committee on this and other issues.

                                   - 

</pre></body></html>
